<html>
<title> - THE CURRENT SECURITY SITUATION ON THE KOREAN PENINSULA</title>
<body><pre>[Senate Hearing 111-825]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-825

         THE CURRENT SECURITY SITUATION ON THE KOREAN PENINSULA

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 16, 2010

                               __________

         Printed for the use of the Committee on Armed Services



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





        Available via the World Wide Web: http://www.fdsys.gov/

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
  63-690 PDF              WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


  

                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
JACK REED, Rhode Island              JAMES M. INHOFE, Oklahoma
DANIEL K. AKAKA, Hawaii              JEFF SESSIONS, Alabama
BILL NELSON, Florida                 SAXBY CHAMBLISS, Georgia
E. BENJAMIN NELSON, Nebraska         LINDSEY GRAHAM, South Carolina
EVAN BAYH, Indiana                   JOHN THUNE, South Dakota
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
CLAIRE McCASKILL, Missouri           GEORGE S. LeMIEUX, Florida
MARK UDALL, Colorado                 SCOTT P. BROWN, Massachusetts
KAY R. HAGAN, North Carolina         RICHARD BURR, North Carolina
MARK BEGICH, Alaska                  DAVID VITTER, Louisiana
ROLAND W. BURRIS, Illinois           SUSAN M. COLLINS, Maine
JEFF BINGAMAN, New Mexico
EDWARD E. KAUFMAN, Delaware
CARTE P. GOODWIN, West Virginia

                   Richard D. DeBobes, Staff Director

               Joseph W. Bowab, Republican Staff Director

                                  (ii)





                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

         The Current Security Situation on the Korean Peninsula



                           september 16, 2010

                                                                   Page

Gregson, Hon. Wallace C., Assistant Secretary of Defense, Asian 
  and Pacific Security Affairs...................................     5
Campbell, Hon. Kurt M., Assistant Secretary of State, East Asia 
  and Pacific Affairs............................................    11
Sharp, GEN Walter L., USA, Commander, United Nations Command; 
  Commander, Republic of Korea-U.S. Combined Forces Command; and 
  Commander, U.S. Forces-Korea...................................    16

                                 (iii)

 
         THE CURRENT SECURITY SITUATION ON THE KOREAN PENINSULA

                              ----------                              


                      THURSDAY, SEPTEMBER 16, 2010

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
E. Benjamin Nelson, Udall, McCain, Thune, LeMieux, and Brown.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Jason W. Maroney, counsel; 
Roy F. Phillips, professional staff member; and Russell L. 
Shaffer, counsel.
    Minority staff members present: Joseph W. Bowab, Republican 
staff director; Christian D. Brose, professional staff member; 
Michael V. Kostiw, professional staff member; and Lucian L. 
Niemeyer, professional staff member.
    Staff assistants present: Paul J. Hubbard, Brian F. Sebold, 
and Breon N. Wells.
    Committee members' assistants present: Vance Serchuk, 
assistant to Senator Lieberman; Carolyn Chuhta, assistant to 
Senator Reed; Ann Premer, assistant to Senator Ben Nelson; 
Jennifer Barrett, assistant to Senator Udall; Lindsay 
Kavanaugh, assistant to Senator Begich; Lenwood Landrum and 
Sandra Luff, assistants to Senator Sessions; Clyde A. Taylor 
IV, assistant to Senator Chambliss; Andrew King, assistant to 
Senator Graham; Jason Van Beek, assistant to Senator Thune; and 
Brian Walsh, assistant to Senator LeMieux.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. Today's hearing is 
to receive testimony on the current security situation on the 
Korean Peninsula and discuss the implications of recent 
developments such as the March 26 attack on the Republic of 
Korea (ROK) naval ship Cheonan, the decision to delay the 
transfer of wartime operational control (OPCON) of the ROK 
armed forces from the United States to the ROK, and the 
prospects for regime change in North Korea, among other issues.
    On behalf of the committee, let me first welcome our 
witnesses: Assistant Secretary of Defense for Asian and Pacific 
Security Affairs Wallace Gregson; Assistant Secretary of State 
for East Asian and Pacific Affairs Kurt Campbell; and General 
Walter Sharp, USA, Commander of United Nations Command (UNC), 
Combined Forces Command (CFC), and U.S. Forces-Korea (USFK).
    The committee appreciates your service, each and every one 
of you. Your insights on this important topic are of great 
significance to us.
    While many of our Nation's military and diplomatic efforts 
remain centered on the continuing mission in Afghanistan, we 
must also keep focused on challenges in other regions of the 
world. One such region is northeast Asia and in particular the 
Korean Peninsula, which has been embroiled in various stages of 
conflict since the start of the Korean War.
    This year, as we commemorate 60 years since the beginning 
of that war, it is appropriate that we recall the noble and 
extraordinary service and sacrifice of the service men and 
women of the United States and allied armed forces that fought 
in the Korean War, as well as those who have served on the 
Korean Peninsula since, sacrificing selflessly and giving of 
themselves tirelessly to help preserve the fragile peace that 
we hope will one day develop into a firm and reliable peace.
    Although the fighting ended in 1953, today the North and 
South remain technically at war. Over the nearly 6 decades 
since the armistice agreement was signed, the Korean Peninsula 
has become a tale of two countries, standing as a true 
testament to the power of democracy and free society on the one 
hand and serving as a stark reminder of the debilitating and 
destructive nature of a repressive totalitarian regime on the 
other.
    Indeed, the 60 years of relative stability on the peninsula 
has enabled the Republic of Korea (ROK), to the south of the 
Demilitarized Zone (DMZ), to thrive, developing into one of the 
world's most vibrant, accomplished, and prosperous democracies. 
But to the north, the Democratic People's Republic of Korea 
(DPRK), as North Korea is known, continues to wither under the 
weight and pressure of its own destructive policies, with its 
people suffering from hardships and neglect caused by a regime 
seemingly concerned only with its own survival and determined 
to use threats and aggression to achieve that end.
    As a result, the security situation on the Korean Peninsula 
remains precarious, and recent events remind us that it is one 
of the most uncertain geographic areas in the world, due in 
large measure to the longstanding reign of a regime unwilling 
to conform to even the most basic standards expected of a 
sovereign nation and a responsible member of the global 
community.
    Characterized mainly by unpredictability, the words and 
actions of the North Korean Government have for the past 
several decades vacillated between modest cooperation and 
unabashed aggression. International efforts to rid the 
peninsula of nuclear weapons through the Six-Party process have 
come to a virtual standstill, and since nuclear inspectors left 
North Korea more than a year ago, the actual status of North 
Korea's nuclear program has been largely unknown.
    It is important that we do not lose focus of the key goal 
of denuclearizing the peninsula. The United Nations (U.N.), 
through various Security Council resolutions such as 1718 and 
1874, has provided tools to sanction and pressure North Korea 
to conform its policies and behavior to international 
principles. While the North Korea issue and the specter of 
proliferation of nuclear technology garner much of the 
international attention, and rightly so, also of concern are 
the intentions of the North Korean regime, which maintains a 
robust conventional military and continues to pursue and 
develop a ballistic missile capability that represents a 
substantial threat to stability and security on the peninsula 
and throughout the region.
    Equally alarming, of course, is that North Korea maintains 
that costly military while millions of its people are starving 
and suffering from the lack of even the most basic human needs.
    Highly disturbing is the willingness of North Korea to 
attack without warning or provocation, as was the case on March 
26 when the South Korean naval ship Cheonan was split in two 
and sunk, killing 46 South Korean sailors, by what an 
international team of experts determined to be a torpedo fired 
by the North Koreans. The Cheonan incident underscores the 
uncertainty of the peninsula and highlights the need to 
maintain a high state of readiness and to protect against 
unprovoked aggression. In the aftermath of the attack, the 
United States and the ROK have begun an enhanced schedule of 
combined exercises, which includes more naval exercises in the 
waters around the peninsula.
    Other recent developments of interest to the committee 
include: the decision by President Obama and South Korean 
President Lee, announced in June, to delay the transfer of 
wartime OPCON of the ROK forces from April 2012 to December 
2015; developments in North Korea, including reports that the 
regime may be preparing plans for a succession in leadership; 
indications of possible proliferation of nuclear weapon 
technology by North Korea to other countries, such as Burma; 
and the current state of the North Korean ballistic missile 
program.
    Of course, it's important to view developments on the 
Korean Peninsula not just in the context of their effect on the 
peninsula itself, but also in the context of their effect on 
Northeast Asia as a whole and on the security and stability of 
the broader Asia Pacific region. To that end, we will also be 
interested in hearing the witnesses' views on how recent 
developments on the peninsula impact the region at large and 
implicate the military and diplomatic dynamics in countries 
like Japan, China, and Russia.
    The ROK remains one of the United States' most steadfast 
and reliable allies and the military alliance is vital to a 
lasting security on the peninsula and throughout the region. As 
the United States and the ROK move forward with plans to 
strengthen that alliance, it is important that both countries 
remain committed to making the investments needed to support 
the realignment of U.S. forces and to prepare for the transfer 
of wartime OPCON in 2015 now.
    Security and stability in this region must remain a top 
U.S. priority as the international community works to achieve 
the complete and verifiable denuclearization of North Korea, to 
prevent the proliferation of weapons of mass destruction (WMD), 
to establish reliable pathways for the delivery of assistance 
and aid to the people of North Korea, and ultimately to secure 
and preserve a lasting peace in this important part of the 
world.
    Again, we welcome our witnesses and we look forward to 
their insights on this very timely subject.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman.
    Let me thank our distinguished witnesses for joining us 
this morning and for their service to our Nation.
    I'm very pleased we're holding this important hearing 
today. The Asian Pacific is one of the most consequential 
regions in the world today. It's the main driver of the 
tectonic shift in the global distribution of power that is 
reshaping our world. It's increasingly at the heart of our 
Nation's security, our prosperity, and our global diplomacy. It 
is a region in which the United States finds both some of our 
greatest allies as well as some of the worst threats to 
international security.
    All these factors come together most vividly in Northeast 
Asia, and in particular on the Korean Peninsula. 60 years after 
the start of the Korean War, the peninsula remains very tense. 
But while the situation in North Korea has rarely been worse, 
our alliance with South Korea has never been better.
    Under the strong leadership of President Lee Myung-bak, the 
ROK is realizing its goal of becoming a responsible global 
leader and our alliance is flourishing as a result. Seoul will 
host the next meeting of the G-20 and our two militaries are in 
the midst of some of the most sophisticated and important joint 
exercises we have ever conducted in the seas around the Korean 
Peninsula. I'm very pleased that the Japanese Self-Defense 
Forces have joined as observers.
    In addition, the ROK recently announced strong additional 
sanctions against the Iranian Government for its pursuit of a 
nuclear weapons capability. This decision was not easy or cost-
free for Korea's Government and companies, and it's another 
reminder that Congress must pass the Korea-U.S. Free Trade 
Agreement (FTA).
    The success of our Korean ally stands in stark contrast to 
the situation in the North, which has been deteriorating 
dramatically. In the past 18 months, the North Korean regime 
has tried twice that we know of to ship arms to Iran. It has 
conducted a second nuclear test. It carried out a catastrophic 
revaluation of its currency. It wiped out a lifetime's worth of 
savings in a matter of hours for most North Koreans.
    According to the Pentagon's 2010 ballistic missile defense 
review, if North Korea continues on its current trajectory it 
could soon have the capability to deliver a nuclear weapon, not 
only to its neighbors, but to the United States.
    Most recently, a complete and thorough investigation by the 
ROK with the participation of numerous independent parties 
determined conclusively that a North Korean torpedo was 
responsible for the sinking of the South Korean corvette 
Cheonan and the loss of 46 of her sailors. It now appears that 
Kim Jong Il is attempting to pass his tyrannical power to his 
young son, so the odds of further North Korean provocations 
could be growing.
    The administration has taken some good steps to impose 
additional pressure against North Korea, including a new 
presidential authority to sanction persons and entities that 
facilitate North Korea's trade in arms, drugs, counterfeit 
goods, currency, and other illicit activities, the real 
lifeblood of the Kim Jong Il regime. Yet it's not clear what 
objective the administration is seeking to achieve with this 
pressure, nor is it clear why the North Korean regime would 
choose to give up its nuclear weapons now when it has never 
been willing to do so before, despite repeated international 
attempts to negotiate, cajole, bribe, and pressure them into 
nuclear disarmament. Unfortunately, China's recent behavior 
makes it even harder to imagine how to formulate an effective 
strategy on North Korea.
    China's response to North Korea's recent provocations calls 
into question its willingness to act as a responsible 
stakeholder in the international system. Rather than support 
the ROK after the sinking of the Cheonan, acknowledge North 
Korea's blame and use its leverage with North Korea to change 
its behavior, China has instead worked to water down the 
response of the U.N., shielded North Korea from accepting 
culpability for its aggressive acts, and even challenged the 
right of the United States and our allies to conduct joint 
exercises in international waters.
    Meanwhile, the additional sanctions against Iran that Japan 
and the ROK recently adopted highlight how increasingly out of 
step China is with the requirements of global leadership on 
this vital security issue.
    The challenges we face on and around the Korean Peninsula 
make it all the more important for the United States and our 
allies to organize ourselves well for our mutual defense. While 
it was right to delay the transfer of OPCON for the defense of 
the ROK, there's no doubt in my mind that South Korean forces 
are among the most capable and best equipped in the world, and 
that the CFC's Strategic Alliance 2015 Initiative will lend 
even greater credence to the U.S. commitment to South Korea and 
our mutual defense.
    Today's hearing is an opportunity to discuss this and many 
other issues pertaining to our forces in Korea, as well as the 
growing challenges we face in Northeast Asia, and I want to 
thank our witnesses again for appearing here today.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Let us begin with you, Secretary Gregson.

 STATEMENT OF HON. WALLACE C. GREGSON, ASSISTANT SECRETARY OF 
          DEFENSE, ASIAN AND PACIFIC SECURITY AFFAIRS

    Mr. Gregson. Thank you, sir. Chairman Levin, Senator 
McCain, members of the committee; thank you for the opportunity 
to appear before you today to discuss the Department of Defense 
(DOD) views on the Korean Peninsula. I'm pleased to report that 
2010 has been a landmark year for the U.S.-ROK alliance. The 
U.S.-ROK alliance is a key pillar of U.S. strategy for a region 
undergoing tremendous political, economic, and security-related 
change. This comprehensive relationship, spanning the defense, 
diplomatic, and economic spheres, continues to serve as a 
source of stability in the face of unpredictable and 
provocative North Korean behavior.
    This past June marked the 60th anniversary of the outbreak 
of the Korean War. At its most basic level, the mission of our 
alliance today remains the same as it did 60 years ago, to 
deter aggression against the ROK, and to fight and win should 
deterrence fail. North Korea's 26 March torpedo attack on the 
ROK naval ship Cheonan, which killed 46 sailors, is a somber 
reminder of the active threat that North Korea poses to 
regional stability. In such a high threat environment, the 
U.S.-ROK alliance's mission to deter and defend takes on added 
significance and remains our primary focus.
    While this deter-and-defend mission remains the top 
priority of the alliance, the U.S. investment in Korea's 
security has helped create an alliance whose value extends far 
beyond the security of the Korean Peninsula. America's stake in 
the peace and prosperity of the Korean Peninsula transcends 
social and economic interconnectivity, to include shared 
identities as liberal democracies that promote a peaceful and 
prosperous Asia. In the ROK, the United States has a partner 
that contributes to upholding international norms and promoting 
international peace and stability.
    In stark contrast, North Korea poses a multifaceted threat 
to peace and stability on the Korean Peninsula and in the Asia 
Pacific region. Pyongyang possesses a large conventional 
military and its active pursuit of a nuclear capability, 
ballistic missile testing and development, and weapons export 
activities cause serious concern. The threat North Korea poses 
exceeds any simple measurement of military power. Its proven 
track record of marrying capabilities with deadly intent has 
resulted in unnecessary crises, tension escalation, and, as the 
attack on the Cheonan demonstrated, the tragic loss of life.
    North Korea has adapted to the U.S.-ROK alliance's 
conventional military superiority by developing tactics and 
weapons systems that equip them with offensive capabilities 
that avoid confronting the military strength of the alliance 
head up. In the context of North Korea's efforts to develop a 
nuclear program, its ballistic missile efforts become an even 
greater concern. Nuclear-armed ballistic missiles, if developed 
and fielded, would pose a threat to regional peace and 
stability that would be orders of a magnitude greater than the 
already heightened threat that its current unconventional 
capabilities pose.
    North Korea may become emboldened to pursue even more 
provocative activities than we have witnessed in recent years 
if it makes significant strides in its development of nuclear 
weapons and ballistic missile technology.
    At the same time that North Korea develops conventional, 
unconventional, and WMD capabilities for its own purposes, it 
continues to export military technologies. We're working 
closely with the international community to deter, track, and 
stop North Korean arms sales.
    I'd like to touch just briefly on the strategic value of 
the U.S. military's presence on the Korean Peninsula. Since the 
armistice agreement was signed in 1953, the U.S. military 
posture on the Korean Peninsula and in the region more 
generally has been successful in preventing major war from 
erupting again. Deterrence has worked. Fundamentally, the 
presence of U.S. forces on the Korean Peninsula continues to 
generate a security dividend that has allowed countries like 
the ROK and Japan to flourish economically and politically. 
Those countries' contributions to international peace and 
stability would be impossible if not for the security assurance 
our military presence provides.
    To preserve our security commitment to the ROK, the United 
States must maintain a forward military posture. 28,500 troops 
stationed somewhere in the United States do not have the same 
deterrent effect as the same number stationed in the ROK. It is 
our forward presence that most effectively communicates our 
resolve to defend our allies and preserve our vital interests 
in Asia. Successful deterrence relies on credibility as much, 
if not more than, capability.
    The security dividend resulting from our longstanding 
military presence in the region is generally well known, but 
ongoing efforts to transform the alliance deserve attention. I 
will defer to General Sharp on the details of this effort, but 
I will note that Strategic Alliance 2015 is an important 
umbrella concept that encompasses and harmonizes many different 
alliance transformation efforts.
    The foundation of Strategic Alliance 2015 is the plan to 
transition wartime OPCON of forces to the ROK joint chiefs of 
staff. Some of the related initiatives that support OPCON 
transition, which is now scheduled to take place by December 
2015, will result in a more strategically positioned military 
footprint, as well as military plans and exercises that are 
updated to better account for the most probable threats that we 
could face today and in the near future.
    The United States is a resident Pacific power, as shown by 
our U.S. military presence and the interests we protect. Our 
presence on the Korean Peninsula and our strong relationship 
with the ROK promote peace and stability in the region and 
enduring interests of the United States and the world.
    Thank you for allowing me to appear before you today and I 
look forward to your questions.
    [The prepared statement of Mr. Gregson follows:]
          Prepared Statement by Hon. Wallace ``Chip'' Gregson
                              introduction
    Chairman Levin, Senator McCain and members of the committee,
    Thank you for the opportunity to appear before you today to discuss 
the Department of Defense (DOD) views on the Korean Peninsula. I am 
pleased to report that 2010 has been a landmark year for the U.S.-
Republic of Korea (ROK) Alliance. The U.S.-ROK Alliance is a key pillar 
of U.S. strategy for a region undergoing tremendous political, 
economic, and security-related change. This comprehensive relationship, 
spanning the defense, diplomatic, and economic spheres, continues to 
serve as a source of stability in the face of unpredictable and 
provocative North Korean behavior.
    Since joining the Office of the Secretary of Defense last year as 
Assistant Secretary for Asian and Pacific Security Affairs, I have 
observed important changes in the nature of the threat posed by North 
Korea, as well as the structure and vision for the U.S.-ROK Alliance. 
During my testimony today, I hope to expand on these changes by 
discussing DOD's views on the following topics:

        <bullet> the importance to the United States of peace and 
        stability on the Korean Peninsula;
        <bullet> North Korea's unconventional threat to Peninsular and 
        regional security, to include its nuclear program;
        <bullet> the value of forward-deployed/postured forces on the 
        Korean Peninsula; and,
        <bullet> the ongoing transformation of the U.S.-ROK Alliance.

                   u.s. interests in korean security
    This past June marked the 60th anniversary of the start of the 
Korean War. At its most basic level, the mission of our Alliance today 
remains the same as it did 60 years ago: to deter aggression against 
the ROK, and to fight and win should deterrence fail. North Korea 
remains as much of a threat now as it did 60 years ago when it 
initiated hostilities with the ROK in an attempt to unify the Peninsula 
under the banner of communism. As North Korea's conventional military 
capability slowly deteriorates, the unconventional threat it poses only 
increases, posing new challenges to the U.S.-ROK Alliance. North 
Korea's March 26 torpedo attack on the ROK Naval Ship Cheonan, which 
killed 46 ROK sailors, is a somber reminder of the active threat that 
North Korea poses to regional stability. In such a high-threat 
environment, the U.S.-ROK Alliance's mission to deter and defend takes 
on added significance and remains our primary focus. While this mission 
remains the top priority of the Alliance, the U.S. investment in 
Korea's security has helped create an alliance whose value extends far 
beyond the security of the Korean Peninsula. America's stake in the 
peace and prosperity of the Korean Peninsula transcends social and 
economic interconnectivity to include shared identities as liberal 
democracies that promote the norms and institutions contributing to a 
peaceful and prosperous Asia. In the ROK, the United States has a 
partner that contributes to upholding international norms and promoting 
international peace and stability, to say nothing of its robust 
economic relationship with the United States.
    For 60 years the United States has supported the ROK as it 
transformed from a poverty-stricken agrarian society to a global leader 
in the information age, touting the 14th largest economy in the world 
with a dedication to democratic governance. Today, U.S. prosperity is 
inextricably linked with that of the ROK. The ROK is the seventh 
largest trading partner of the United States; more than 120,000 U.S. 
citizens live and work in the ROK, with the vast majority residing in 
Seoul; and, more than two million ethnic Koreans reside in the United 
States, playing an active role in our local communities and national 
economy.
                         the north korea threat
    North Korea poses a multi-faceted threat to peace and stability on 
the Korean Peninsula and in the Asia-Pacific region. Pyongyang's large 
conventional military, active pursuit of a nuclear capability, 
ballistic missile testing and development, and weapons export 
activities--all in violation of United Nations Security Council 
Resolutions--are enough to cause serious concern, but these factors in 
and of themselves are not what make North Korea so threatening. Other 
nations possess material capabilities that match or exceed what North 
Korea possesses, but North Korea poses a unique threat because of its 
proven willingness to match resources and capabilities with 
provocative, unpredictable behavior, and its continued export of 
illicit items to other states that seek to harm the United States and 
our allies and friends around the world. The danger posed by North 
Korean weapons and military strength are amplified greatly by the 
regime's willingness to dedicate its meager resources to maximizing its 
lethality. Time and again, North Korea has displayed a lack of regard 
for what the rest of the world considers acceptable behavior, flouting 
international law and ignoring the will of the international community.
    North Korea still maintains a large conventional military force 
postured against the the ROK, the United States, and other 
international forces on the Korean Peninsula. Its large numbers belie 
its actual capabilities, however, as decades of economic isolation have 
hindered North Korea's ability to provide proper maintenance and 
upgrades to its military hardware, leading to a qualitatively inferior 
conventional military force compared to the ROK. North Korea's Air 
Force, for example, relies mostly on Russian technology from the 1960s 
and 1970s.
    North Korea's decline in conventional military terms has led to an 
evolution in the nature of the North Korea threat, not a diminution of 
it. North Korea has adapted to the U.S.-ROK alliance's conventional 
military superiority by developing tactics and weapons systems that 
equip them with offensive capabilities that avoid confronting the 
greatest military strengths of the alliance, in an attempt to compete 
on what it likely perceives as a more favorable playing field. The AN-2 
Colt, for instance, is a case study of the threat North Korea poses in 
the face of significant resource constraints. A propeller-driven 
biplane made mostly of cloth and wood, the AN-2 gives off virtually no 
signature on radar, making it difficult to identify in the event it is 
used in troop insertion or infiltration missions. When combined with 
more than 100,000 Special Operations Forces, North Korea's AN-2 
aircraft has truly lethal potential, illustrating how North Korea could 
disturb the peace even as it faces difficulty modernizing its 
conventional force.
    North Korea has also invested considerable effort in developing, 
testing, and growing its ballistic missile arsenal. North Korea has 
continued its ballistic missile-related activities in contravention of 
U.N. Security Council Resolutions 1718 and 1874. As North Korea gets 
closer to perfecting its missile technology over time, its arsenal 
poses more of a threat to U.S. interests in the region and at home. 
Although North Korea's Taepodong-2 intercontinental ballistic missile 
has not yet reached the requisite level of technological refinement, 
the missile is theoretically capable of striking U.S. territory. North 
Korea test-fired an earlier generation version of this missile, the 
Taepodong-1, over Japan in 1998, demonstrating that at a minimum, it is 
capable of striking U.S. interests and allies in the Asia-Pacific.
    In the context of North Korea's efforts to develop a nuclear 
program, its ballistic missiles become an even greater concern. 
Nuclear-armed ballistic missiles, if developed and fielded, would pose 
a threat to regional peace and stability that would be orders of 
magnitude greater than the already heightened threat that it poses.
    It is important, moreover, to underscore that North Korea's 
provocations aren't related exclusively to weapons development; they 
also include the use of these capabilities, as tragically demonstrated 
in the case of the North Korean sinking of the ROK vessel Cheonan. We 
have stood steadfast with our ROK ally through the search and rescue 
operations and the multinational investigation that decisively 
concluded that a torpedo from a North Korean submarine, fired under 
cover of night, produced a shockwave and bubble jet effect that split 
open the hull of the Cheonan and sank it nearly immediately, all in a 
``pillar of white flash.'' We have undertaken bilateral exercises to 
improve alliance capabilities, demonstrate readiness, and send a strong 
signal of alliance resolve. These exercises are entirely defensive in 
nature, and represent one component of a broader whole-of-government 
approach to the range of North Korean provocative actions, including 
missile tests, announced nuclear tests and the sinking of the Cheonan. 
That also includes high-level diplomacy at the United Nations and in 
the region, and the issuance of Executive Order 13551, which imposes 
new sanctions on targeted entities and individuals involved in North 
Korean conventional weapons sales and procurement, luxury goods 
procurement, and illicit activities.
    At the same time that North Korea develops the conventional and 
unconventional capabilities that I've just discussed for its own 
purposes, it also makes them available for export to other states that 
pose a direct threat to U.S. allies, friends, and interests in other 
regions--a significant source of income for the regime and a phenomenon 
that vividly illustrates that North Korean behavior is not a problem 
only on the Korean Peninsula or in Asia, but one that spans the globe 
and connects with other dangerous actors. Our efforts to deter, track, 
and stop North Korean arms sales include working closely with the 
international community. Cooperation on the enforcement of United 
Nations Security Council Resolutions 1718 and 1874, which prohibit 
North Korea from transferring all arms and related material as well as 
WMD, to include related equipment and technology, and their delivery 
systems, is paramount in this arena and has produced results. In the 
past year, a number of states in Asia, Africa, and the Middle East have 
successfully seized arms and related materiel coming from North Korea 
and bound for other customers. Despite these successes, enforcement of 
sanctions remains a formidable challenge. North Korea uses various 
methods to attempt to circumvent UNSCRs 1718 and 1874; as a result we 
continue to strengthen our implementation efforts and cooperation with 
allies and partners.
            the value of the u.s. military presence in korea
    I would like to touch briefly on the strategic value of the U.S. 
military's presence on the Korean Peninsula. Since the Armistice 
Agreement was signed in 1953, the U.S. military posture on the Korean 
Peninsula, and in the region more generally, has been successful in 
preventing major war from erupting again. Deterrence has worked.
    Fundamentally, the presence of U.S. forces on the Korean Peninsula 
continues to generate a security dividend that has allowed countries 
like the ROK and Japan to flourish economically and politically, in 
spite of the persistent threat from the north. The U.S. military 
footprint in Korea today thus serves the same basic objective that it 
has for more than half a century. Our presence in Korea guards against 
the unthinkable, serving as a physical demonstration of our commitment 
to the security of our Korean ally, as well as a symbolic reminder to 
the region that the peace and stability of the Asia-Pacific is a vital 
U.S. interest.
    The threat from North Korea must be kept at bay; stability must be 
preserved. To achieve this, the United States must maintain a forward 
military posture. 28,500 troops stationed somewhere in the United 
States do not have the same deterrent effect as the same number 
stationed in the ROK. Successful deterrence relies on credibility as 
much as, if not more than, capability. It is our forward presence that 
most effectively communicates our resolve to defend our allies and 
preserve our vital interests in Asia. Our presence is far more than an 
important symbol. It stands as an irrefutable, tangible manifestation 
of our commitment to the defense of our allies and our commitment to 
peace and stability in the region.
    But the value of the U.S. military's forward presence in Korea is 
not limited to preventing war. U.S. forces in Korea will increasingly 
contribute to regional capacity building, maritime interdiction 
efforts, counter-piracy missions, and humanitarian assistance and 
disaster relief operations. U.S. bases in Korea are strategically 
positioned to be able to immediately address these types of 
contingencies throughout the region in a manner much more efficient 
than deploying troops from the United States.
    While our forward deployed force posture is crucial to preventing 
the outbreak of a major conflict on the Korean Peninsula, it is not a 
panacea. As I already mentioned, North Korea's development of a range 
of threatening capabilities, and its willingness to employ them, poses 
a different type of threat than we faced from North Korea 60 years ago. 
This asymmetric challenge illustrates the need for the U.S.-ROK 
alliance to adapt to a new security environment in the region. It is in 
this vein that I wish to highlight the alliance transformation 
initiatives going on as we speak.
                        alliance transformation
    I will defer to General Sharp's testimony to provide the details of 
our many lines of effort in the transformation of the U.S.-ROK 
alliance, but I would like to take a moment to emphasize the net 
benefit that these various initiatives provide. The security dividend 
resulting from our longstanding military presence in the region is 
generally well known, but the ongoing efforts to transform the alliance 
for the future deserve some attention.
    Strategic Alliance 2015 (SA2015) is an umbrella concept that 
encompasses and harmonizes many different alliance transformation 
efforts. The foundation of SA2015 is a plan to transition wartime 
operational control (OPCON) of forces to the ROK Joint Chiefs of Staff. 
Originally scheduled to transition in 2012, the United States agreed to 
postpone OPCON transition at ROK request, after assessing the strategic 
security environment and considering the many changes in the alliance 
to take place over the next 5 to 10 years. Some of the related 
initiatives that support OPCON transition, which is now scheduled to 
take place by December 2015, will result in military plans and 
exercises that are updated to better account for the most probable 
threats we could face today and in the near future; other initiatives 
will strategically redistribute U.S. forces on the Peninsula; still 
other efforts will produce restructured command relations so that after 
OPCON transition takes place in 2015, U.S. forces in Korea will be 
comprised of a warfighting command that supports ROK forces, who will 
then lead the warfight.
    Increasingly, there is also a regional and global dimension to our 
bilateral alliance with the ROK. Over time we have both come to realize 
that we share in common many interests that go beyond the Korean 
Peninsula. In the Gulf of Aden, the ROK has taken the lead in Combined 
Task Force-151, a multinational counter-piracy mission. In Lebanon, as 
the United States has sought to support the Lebanese people by 
strengthening their government against the forces of extremism, the ROK 
has done the same, by contributing troops to the U.N. peacekeeping 
mission there. In Haiti, a country that once provided development aid 
to Korea following the ravages of war, the ROK has aid workers on the 
ground, helping that country rebuild, not only with financial 
assistance, but also with labor, materials, and technical expertise. 
The ROK is an active member of the Proliferation Security Initiative, 
will host a series of PSI-related activities this fall, is a party to 
several international agreements promoting nonproliferation of WMD, and 
will even host the Nuclear Security Summit in 2012--symbolically, a 
complete repudiation of the path North Korea has taken. In Afghanistan, 
the ROK provides an entire Provincial Reconstruction Team of more than 
400 military and civilian personnel to support the stability and 
reconstruction operations under the aegis of the International Security 
Assistance Force. Our alliance with the ROK thus benefits the United 
States and the international community. The ROK has evolved to become 
one of the key underwriters of international peace and prosperity, 
helping to promote globally the values on which our alliance firmly 
rests.
                                closing
    The United States is a resident Pacific power, as evidenced by our 
U.S. military presence and the interests they protect. Our presence on 
the Korean Peninsula and our strong relationship with the ROK promote 
peace and stability in the region, which is an enduring interest of the 
United States and the world. Thank you for allowing me to appear before 
you today. I look forward to your questions.

    Chairman Levin. Thank you very much, Secretary Gregson.
    Secretary Campbell.

  STATEMENT OF HON. KURT M. CAMPBELL, ASSISTANT SECRETARY OF 
              STATE, EAST ASIA AND PACIFIC AFFAIRS

    Mr. Campbell. Thank you, Mr. Chairman, and it's an honor to 
testify before all of you gentlemen, and it's also terrific to 
be with my colleagues and friends here on the panel before you 
today.
    I'd like to submit my full testimony for the record and 
just summarize a few brief points for you as we get started 
here this morning.
    Let me first fully support every word each of you said in 
your opening remarks this morning. I think it is well 
understood that the United States faces enormously 
consequential challenges in South Asia. Currently our young men 
and women are involved and engaged actively on challenges in 
Afghanistan, Iraq, and elsewhere. But it is also the case that 
increasingly the drama of the 21st century is playing out in 
the Asian Pacific region. The United States has to understand 
that for us to be successful as a Nation we have to be more 
actively engaged in every aspect of diplomacy, economic 
security, and other deliberations that are under way now in the 
Asian Pacific region.
    I must say that I think President Obama, Secretary Clinton, 
and Secretary Gates appreciate that, and we have tried to act 
in accordance with this fundamental reality of the 21st 
century.
    One of the key national priorities of the United States is 
the maintenance of peace and stability on the Korean Peninsula. 
I think as each of you, Mr. Chairman and Senator McCain, have 
underscored, we've faced some urgent challenges on the 
peninsula over the course of the last many months, and we have 
worked closely with our friends and allies to respond 
accordingly.
    The basis of our strategy in Northeast Asia rests on two 
very strong and important allies. The United States' 
relationship with Japan remains the cornerstone of our 
engagement and our security partners in the Asian Pacific 
region. We have worked, with the strong support of General 
Gregson and others, on continuing to revitalize that effort, 
that security partnership, an effort that was undertaken with 
great effect over the course of the Bush administration. We've 
tried to build on that. We recognize the importance of Japan. 
It's hard to be successful in Asia without that very strong and 
central relationship.
    We also have taken real steps in recent years to strengthen 
the critical partnership, as General Gregson has underscored, 
with South Korea. That partnership is increasingly not simply 
centralized on the Korean Peninsula. It's a global alliance. 
Korea is working with us in a variety of places, in 
Afghanistan, as Japan is as well. We're very pleased by the 
direction of both of these critical alliances in Asia.
    It is also the case that we are recognizing important 
milestones. This is the 60th anniversary of the outbreak of the 
Korean War. Secretary Gates and Secretary Clinton were both 
recently in South Korea to commemorate that solemn occasion. 
Later this year, President Obama and in fact most of the 
administration will be in Japan to recognize the 50th 
anniversary of the conclusion of our security partnership and 
treaty with Japan. So important times in both relationships, in 
Japan and South Korea.
    I think the sinking of the Cheonan provided a very clear 
and stark reminder of the dangers on the Korean Peninsula, and 
I think the last 6 or so months have been a case study in close 
coordination, not just between the United States and South 
Korea, but also with our other allies and friends in the 
region. We've worked hard on every single element of our 
overall strategy. General Sharp will talk about our military 
steps, our exercises, other steps to increase and enhance our 
deterrence capabilities, our diplomacy, both in the region and 
in the U.N., and more recently steps associated with sanctions 
policy and the like to send a very clear message that such 
provocative actions as undertaken by the North Koreans cannot 
be tolerated, and there must be a united front to confront such 
provocative steps.
    I must say again I'd like to underscore very clearly the 
point that both the chairman and Senator McCain made about 
President Lee Myung-bak. He has been an extraordinary partner 
in South Korea, one of the most able and effective leaders that 
we've ever had the pleasure to work with in Asia. I think he 
has conducted himself in the wake of the Cheonan with a 
statesmanship and a calm that has been truly inspirational at 
every level, and we're very grateful to have the chance to work 
with him going forward.
    I must say that in the current environment I think it's 
clear that the United States has to be prepared for every and 
all situations on the Korean Peninsula and we are attempting to 
do that through very quiet, intimate, internal deliberations on 
a variety of circumstances, through planning exercises, through 
external diplomacy. It's also the case with the recent visit of 
Ambassador Bosworth and Ambassador Sun Kim throughout the 
region.
    We're also prepared for truly productive diplomacy with 
North Korea. We stand ready, working with our allies, to do so 
under the right circumstances.
    I must also say that we also have to take important steps 
in Asia to underscore our leadership. I must associate myself 
strongly with Senator McCain on the Korea FTA. I think this is 
a strategic priority of the United States. I think the 
imperatives there are clear. I think President Obama has 
indicated the way forward in this regard.
    I think the situation in Northeast Asia is extraordinarily 
complex. It requires the strong leadership of the United 
States, and with the strong support of Congress and the Senate 
and the colleagues sitting before you today, I think we're up 
to that challenge.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Campbell follows:]
              Prepared Statement by Hon. Kurt M. Campbell
    Chairman Levin, Senator McCain, distinguished members of the 
committee, it is a privilege to appear before you today to discuss the 
security situation on the Korean Peninsula and our alliances in 
Northeast Asia. I want to thank the committee for its continued 
leadership role on Asia-Pacific issues and commend it for understanding 
the importance of the Asia-Pacific for American national interests.
    The Obama administration entered office with a deep appreciation of 
the strategic importance of the Asia-Pacific to U.S. national 
interests. America's future is intimately tied to that of the Asia-
Pacific, and our economic and strategic interests in the region are 
among the most important in the world. The region is home to almost 
one-third of the Earth's population and accounts for almost one-third 
of global gross domestic product. Strong coordination between the 
United States and key Asian economies was instrumental for the global 
economic recovery. Currently, more than 60 percent of our exports go to 
the Asia-Pacific. American and Asian companies are among the most 
dynamic in the world, and our economies are growing increasingly 
interdependent. The region is also home to critical strategic 
chokepoints for global commerce, emerging power centers that will have 
profound implications for U.S. and international interests, and a 
foundation for American power projection in the greater Asia-Pacific.
    In recognition of our deep and abiding interests in the region, we 
are working hard to ensure our alliances in the Asia-Pacific are among 
our strongest and most active. Our alliances have underwritten peace 
and security for over 50 years and provided a context for economic 
prosperity that in many ways has enabled the ``Asian economic 
miracle.'' This year we are celebrating the 50th anniversary of the 
U.S.-Japan alliance and also commemorating the 60th anniversary of the 
start of the Korean War. Our alliances with Japan and the Republic of 
Korea have evolved from strategic bulwarks against Soviet expansionism 
to truly global partnerships.
    The Obama administration is committed to developing and enhancing 
each and every one of our strategic alliances in the Asia-Pacific.
    Our alliance with Japan is a cornerstone of our strategic 
engagement in Asia. The May 2006 agreement on defense transformation 
and realignment will enhance deterrence while creating a more 
sustainable military presence in the region. We are working with Japan 
to create a more durable and forward-looking vision for the alliance 
that not only enhances our mutual defense capabilities, but also 
develops Japan's role as a global leader on issues such as climate 
change and development assistance. As we mark the 50th anniversary of 
the alliance, we will continue to work closely with Japan to develop 
and maximize our joint capabilities as alliance partners.
    Together with our Asia-Pacific allies, we are working to respond to 
both traditional and nontraditional security challenges ranging from 
proliferation to climate change, as well as developing more robust 
regional architecture that will help enhance regional capacities to 
both deal with problems and seize opportunities for greater integration 
and stability. The emergence of transnational challenges necessitates 
that the United States work with other partners to find solutions. We 
will continue to work with our traditional allies on these issues, 
while enhancing relationships with countries like China, India, 
Indonesia, and Vietnam. I would like to take the opportunity to 
emphasize the bilateral, regional and global dimensions of our 
engagement with the Republic of Korea.
              peninsular, regional, and global dimensions
    U.S. leadership is indispensable to the maintenance of peace and 
security on the Korean Peninsula. Recognizing this fact, the 
administration has undertaken steady and broad engagement throughout 
the region, with a particular focus on broadening our alliances with 
Japan and South Korea. In November of last year, President Obama 
visited Japan and South Korea (in addition to China and Singapore) and 
has subsequently had many bilateral meetings with his Japanese 
counterpart and South Korean President Lee Myung-bak. Secretary Clinton 
has visited the region five times since taking office, with her initial 
journey as Secretary of State to the Asia-Pacific, and her first visit 
to Japan. Secretary Clinton has enjoyed a strong working relationship 
with Foreign Minister Okada and continues to underscore the central 
importance of the U.S.-Japan alliance to American engagement and 
strategic interests in the region. Most recently, Secretary Clinton 
attended a historic ``2+2 meeting'' with Secretary Gates and their 
counterparts in Seoul, underscoring and charting a forward looking 
vision for the U.S.-ROK alliance. President Obama will travel to Seoul 
this November for the G-20 Summit and will attend the APEC Summit in 
Yokohama, Japan.
    We are working closely with the Republic of Korea to achieve a 
partnership that is truly global and comprehensive in nature. President 
Obama and President Lee Myung-bak have charted a forward-looking agenda 
for the alliance, outlined by the June 16, 2009 U.S.-ROK Joint Vision 
Statement. The U.S.-ROK alliance continues to evolve rapidly and has 
provided a solid foundation for security in the Asia-Pacific region for 
more than half a century. This security has helped make possible 
economic and political development in the ROK that was unimaginable at 
the end of the Korean War. Today Korea is a vibrant democracy with the 
14th largest economy in the world and is our seventh largest trading 
partner. Our economic ties continue to serve as a strong foundation for 
the U.S.-ROK partnership. This is why President Obama underscored his 
support the U.S.-Korea free trade agreement by undertaking to resolve 
outstanding issues by the time he visits Seoul in November. Its 
successful implementation will benefit both economies, create jobs, and 
bolster the enduring strength of this strategic partnership in an 
important and rapidly growing region. It can also contribute to the 
strengthening of our overall bilateral alliance. In November of this 
year, Korea will host the next G-20 Summit in Seoul, a first for a non-
G-8 nation and a first for an Asian country.
    The United States and ROK are also working closely to modernize our 
defense alliance, which remains a key element of our overall bilateral 
relationship. We are working closely to adjust our force posture and 
presence to be better positioned to respond to current and future 
security challenges. We are moving towards a posture and presence that 
reflects a relationship of equals and that ensures a forward-stationed 
deployment of 28,500 American troops in South Korea. We recently moved 
the date of Wartime Operational Control transfer from 2012 to 2015 in 
order to strengthen the transition plan. This change will allow us to 
more closely synchronize the ROK lead of the combined defense with 
other ongoing alliance transformation efforts. In addition to military 
cooperation, our broader bilateral relationship outside the military 
realm also contributes to and enhances the security of the Korean 
Peninsula.
    The closeness of our alliance with the Republic of Korea is also 
demonstrated by the existence of a series of institutional consultative 
mechanisms, including the Security Consultative Meeting, the Military 
Consultative Meeting, and the Security Policy Initiative. These 
mechanisms bring together high-level officials to discuss critical 
issues of mutual concern. Secretary Gates will meet with his 
counterpart on October 8 at the next Security Consultative Meeting in 
Washington, DC. We also have regular and increasingly broad trilateral 
dialogue with the Koreans and Japanese. The last formal Defense 
Trilateral Talks were held on September 13 in Washington.
    As the ROK has grown and prospered, we have seen a convergence of 
interests between our two countries throughout the world. The ROK 
continues to be an increasingly active partner in global affairs, and 
our bilateral and multilateral cooperation transcends the Asia-Pacific 
region.
    For example, the ROK is currently deploying a destroyer to the 
Combined Maritime Forces' counter-piracy operation Combined Task Force 
151, and a Korean Admiral currently holds the rotating command of this 
task force. Separately, the Koreans will chair the fall plenary meeting 
of the Contact Group on Piracy off the Coast of Somalia in New York. 
Korea is deploying a Provincial Reconstruction Team to Parwan Province 
in Afghanistan, and the Korean Government quickly deployed peacekeepers 
to Haiti in the wake of the terrible earthquake there this past 
January. Korea is also involved in peacekeeping efforts in Lebanon, and 
they also deploy military observers and staff officers to a host of 
other U.N. peacekeeping missions. The ROK has also pledged $200 million 
towards development in Pakistan. The ROK, along with Japan, recently 
took steps to implement additional sanctions against Iran, similar in 
scope to the excellent measures adopted by the EU, joining a growing 
global consensus and strengthening our efforts to send a unified 
message to Iran that it should uphold its nuclear nonproliferation 
obligations and negotiate seriously on its nuclear program.
    Korea made the leap from aid recipient to aid donor in a very short 
time span, and we are looking for opportunities to work together on 
development issues going forward. The ROK is an exemplar of development 
and has much to teach the developing world. In less than 30 years after 
the end of the U.S. Peace Corps program in Korea, thousands of 
idealistic young Koreans have volunteered for similar missions in the 
developing world.
                              north korea
    South Korea's successful and positive role as a regional power is 
in stark contrast with North Korea. North Korea poses the most 
immediate risks to both South Korea and the stability of East Asia. 
North Korea's unprovoked attack on the Republic of Korea naval ship 
Cheonan on March 26, 2010, claimed the lives of 46 South Korean 
sailors. This attack gave the international community yet another 
reminder of the unpredictable and enduring threat posed by North Korea.
    The United States has responded to a number of provocative actions 
by the Democratic People's Republic of Korea (DPRK)--diplomatically, 
militarily, and economically. Let there be no doubt about U.S. 
conviction here. In the case of the Cheonan sinking, the United States 
worked closely with member states in the U.N. to craft a strong 
response. As a result, on July 9, the U.N. Security Council issued a 
Presidential Statement condemning the attack on the Cheonan and 
demonstrating the Council's unity in confronting threats to 
international peace and security.
    The United States and the ROK have also coordinated closely on a 
series of combined military exercises to ensure readiness and to deter 
future aggression. These defensive exercises are designed to send a 
clear message to North Korea that the United States and ROK are 
committed to enhancing their combined defensive capabilities. The first 
exercise, Invincible Spirit, a combined maritime and air readiness 
exercise, occurred from July 25-28 in the Sea of Japan. On August 16-
26, the Combined Forces Command completed the annual Ulchi Freedom 
Guardian exercise, which focused on ensuring our readiness to prepare 
for, prevent, and prevail against the full range of provocations on the 
Korean Peninsula both now and in the future. The United States and ROK 
will continue to routinely conduct joint military exercises to enhance 
interoperability and increase our ability to respond to threats to 
peace. These steps enhance security on the peninsula by sending a clear 
message of our capabilities and determination.
    In addition, the United States has taken additional steps through 
the adoption of new sanctions targeting DPRK proliferation and illicit 
activities. By adopting these new measures, the United States is 
sending a signal to the DPRK that its provocative actions, including 
its announced test of a nuclear device, missile launches, and the 
sinking of the Cheonan, are not without costs. On August 30, President 
Obama signed an Executive order implementing new country-specific 
sanctions against the DPRK. The Executive order directs the Secretary 
of the Treasury, in consultation with the Secretary of State, to target 
for sanctions individuals and entities that support the Government of 
North Korea through arms sales and illicit economic activities, 
including money laundering, the counterfeiting of goods and currency, 
bulk cash smuggling, and narcotics trafficking. The new Executive order 
supplements existing U.S. sanctions targeting proliferators of weapons 
of mass destruction (WMD) and those who support them and strengthens 
our enforcement of U.N. Security Council Resolutions 1718 and 1874. The 
additional sanctions are not directed at the North Korean people, who 
have suffered too long, nor are these measures targeted at those who 
provide legitimate humanitarian relief to the people of North Korea. 
These sanctions target only the North Korean military and leaders.
    As Secretary Clinton has said, ``From the beginning of the Obama 
administration, we have made clear that there is a path open to the 
DPRK to achieve the security and international respect it seeks.  . . . 
If North Korea chooses that path, sanctions will be lifted, energy and 
other economic assistance will be provided, its relations with the 
United States will be normalized, and the current armistice on the 
peninsula will be replaced by a permanent peace agreement. But as long 
as it makes a different choice--if it continues its defiance, 
provocations, and belligerence--it will continue to suffer the 
consequences.''
                               way ahead
    The Republic of Korea is a key partner and contributor to regional 
and global peace and stability. The Obama administration is unwavering 
in its resolve to uphold its treaty commitments to defend its allies. 
We highly value our broad relationships with the ROK and Japan and are 
deepening our security relationships with both countries as well as 
with our other partners in the region to ensure peace and stability on 
the peninsula. The U.S. position on the DPRK has remained constant: we 
will not accept North Korea as a nuclear weapons power. The United 
States has underscored numerous times that North Korea can only achieve 
the security and international respect it seeks by ceasing its 
provocative behavior, improving its relations with its neighbors, 
complying with international law, and taking irreversible steps toward 
fulfilling its denuclearization commitments under the September 2005 
joint statement.
    The attack on the Cheonan served as a stark reminder of the 
importance of our alliance in the face of continued North Korean 
provocations and raised tensions to a level not seen in many years. 
This unprovoked aggression reinforces the need to be prepared for a 
broad range of security challenges from the north and all manner of 
unpredictable developments. American, Japanese, and ROK commitment to 
the peace and security of Northeast Asia will remain critical to deal 
with North Korea, but also to ensure a context for peace and stability 
in the greater Asia-Pacific.
    As President Obama has stated, the United States is a ``Pacific 
power.'' Our alliance relationship with the Republic of Korea serves as 
a critical anchor for our strategic engagement in the Asia-Pacific. 
Looking back over the past 60 years, it is amazing to see the evolution 
of the U.S.-ROK relationship. The relationship is no longer defined 
solely through the monocular lens of North Korea, but is increasingly 
global in scope. Our shared interests and democratic values will prove 
instrumental in ensuring a context of peace and prosperity for the 
Asia-Pacific for the coming years.
    Thank you for extending this opportunity to me to testify today on 
this timely and important issue. I am happy to respond to any questions 
you may have.

    Chairman Levin. Thank you, Secretary Campbell.
    General Sharp, welcome.

   STATEMENT OF GEN WALTER L. SHARP, USA, COMMANDER, UNITED 
  NATIONS COMMAND; COMMANDER, REPUBLIC OF KOREA-U.S. COMBINED 
        FORCES COMMAND; AND COMMANDER, U.S. FORCES-KOREA

    General Sharp. Thank you, sir. Chairman Levin, Senator 
McCain, distinguished members of the committee; I thank you 
very much for this opportunity to update you today on the 
security situation on the Korean Peninsula.
    Before I start, if I may, sir, I'd like to introduce my 
Command Sergeant Major, Bob Winzenried, who is here with me, 
who is so critical in taking care of those 28,500 soldiers, 
sailors, airmen, and marines that are part of the peninsula. 
It's an honor for both of us to be here today, sir.
    Chairman Levin. A warm welcome to you both, and please pass 
along to those 28,500 men and women and their families our 
thanks and our gratitude to them for their service.
    General Sharp. Thank you, Senator.
    Actually during my last testimony in front of you on March 
26, North Korea launched a premeditated and unprovoked attack 
on the ROK Navy ship the Cheonan. After aiding our Korean 
allies with recovery operations, a multinational investigation 
led by Korean, British, Australian, Swedish, Canadian, and 
United States experts concluded the following: A shock wave and 
bubble effect generated by an underwater explosion of a North 
Korean-launched torpedo at a depth of 6 to 8 meters and 3 
meters left of the center of the ship caused the ROK ship the 
Cheonan to split apart and killed 46 sailors.
    After the publication of these findings, the UNC Military 
Armistice Commission and the Neutral Nations Supervisory 
Commission established a special investigation team which, 
based on a multinational investigation, concluded that North 
Korea attacked the Cheonan and it was a major armistice 
violation.
    Our ROK allies and the United States have launched a series 
of sea, air, and land exercises to better prepare us to deter 
and defeat North Korean provocations. The first of these 
exercises, Invincible Spirit, was successfully led in the seas 
off the east coast of Korea. Others are scheduled in the near 
future and, along with our regular exercises such as Ulchi 
Freedom Guardian and Key Resolve, these exercises have all 
greatly expanded to include training that focuses both on 
deterring and defeating future provocations by North Korea.
    The attack on the Cheonan along with the continued 
development and testing of nuclear and ballistic weapons in 
violation of multiple Security Council resolutions, 
demonstrates that North Korea continues to be a great threat to 
peace and prosperity in Northeast Asia. The continuing focus of 
North Korea on WMD, ballistic missile technology, special 
forces, long-range artillery threats to civilian populations, 
and asymmetrical means, along with the declared regime goal of 
North Korea to become a great and powerful nation by 2012, 
suggest that it will continue to threaten the region and the 
ROK in the future.
    On the ROK-U.S. alliance front, the Korean President, Lee 
Myung-bak, requested and President Obama agreed to adjust the 
transition of OPCON from April 2012 to 2015. Although the ROK 
and the United States were on track militarily to complete the 
OPCON transition in 2012, this adjustment will allow the 
alliance to synchronize a number of ongoing alliance 
initiatives, of which transition of OPCON is just one of them.
    The new, much more comprehensive plan, called Strategic 
Alliance 2015, goes well beyond OPCON. It synchronizes all the 
transformation initiatives currently under way, to include 
refining and improving our OP plans, more realistic training 
and exercises, the development of new organizational 
structures, the acquiring, organizing, and training, improved 
capabilities, and the movement of U.S. forces to two enduring 
hubs.
    Strategic Alliance 2015 will enable the ROK and U.S. forces 
to successfully confront future security challenges and set the 
conditions for lasting peace in the Korean Peninsula and in the 
region.
    Tour normalization complements our other transformation 
efforts by providing the command with soldiers, sailors, 
airmen, and marines who are highly trained in all of our 
contingency plans, who possess in-depth knowledge of the North 
Korean threat, and who have a strong professional and personal 
knowledge of and training with our Korean counterparts and 
hosts. It also clearly demonstrates the commitment of the 
United States to the region and to the ROK, a factor that I 
think is both critical now and even more so in the future. Tour 
normalization also reduces the stress on our military by 
eliminating an unneeded unaccompanied tour.
    Your continued support in this initiative is critical and 
very much appreciated.
    An important part of the command's Yongsan Relocation 
Program (YRP) and land partnership initiatives is housing. To 
meet our future housing needs at Camp Humphreys, the Department 
is developing a Humphreys Housing Opportunities Plan (HHOP). 
This plan is examining the combination of several housing 
options. First is the HHOP and second is Army Family Housing 
Military Construction (MILCON).
    The Army Housing Opportunities Program draws upon the 
private sector development, financing, and operational support 
for the construction and operation of housing units without the 
need for military capital investment. MILCON, if approved, 
supports the housing needs for the additional families that 
HHOP cannot house. Combining new financial models with 
traditional means of funding moves us significantly closer to 
our goal of providing servicemembers and their families with 
quality housing and facilities after they move to Camp 
Humphreys under the YRP and the Land Partnership Program.
    Again, your support is greatly appreciated.
    Northeast Asia and Korea remain the location of some of the 
greatest security opportunities and challenges. The North 
Korean threat continues to transform itself. The conventional 
threat continues, but we now face an enemy capable of using a 
number of asymmetrical means to threaten its neighbors in hope 
of gaining concessions, while also violating past agreements, 
international norms, and the U.N. Security Council (UNSC) 
resolutions.
    The ROK and the United States are more strongly united than 
ever before to deter North Korean provocations and aggression 
and to defeat them, if necessary. Strategic Alliance 2015 will 
provide us with the means with which we will successfully 
maintain peace and promote freedom in Northeast Asia.
    Together, the ROK and the United States have kept the peace 
in the region for 57 years. I am confident that we will 
continue to do so until a lasting peace has been established in 
the region.
    Again, I thank you for your support and for the opportunity 
to appear before you today. I look forward to answering your 
questions.
    [The prepared statement of General Sharp follows:]
             Prepared Statement by GEN Walter L. Sharp, USA
                              introduction
    Mr. Chairman and distinguished members of the committee, thank you 
for the privilege of appearing before you today to discuss the security 
situation on the Korean Peninsula. I greatly appreciate this 
opportunity to update the committee on affairs in Korea since the last 
time I appeared before you last March. The year 2010 marks the 60th 
anniversary of the start of the Korean War, a 3-year conflict that 
resulted in millions of military and civilian casualties and has yet to 
be concluded by a formal peace agreement. U.S. Forces Korea and our 
component commands, in cooperation with government and veterans 
organizations in the Republic of Korea (ROK), have been conducting a 
host of events to honor Korean, U.S., and United Nations veterans who 
fought courageously side-by-side to repel North Korea's aggression of 6 
decades ago. The year 2010 also marks the 57th anniversary of signing 
the U.S.-ROK Mutual Defense Treaty. Serving as a cornerstone for the 
broader U.S.-ROK Alliance, mutual commitments under the treaty have 
allowed both nations to deter aggression against the ROK and promote 
peace and stability on the Korean Peninsula and throughout the broader 
region of Northeast Asia. As observed by President Obama in his Korean 
War Veterans Armistice Day Proclamation of July 26, 2010, the U.S.-ROK 
Alliance is rooted in shared sacrifice, common values, mutual interest, 
and respect, where the partnership is vital to stability in Asia and 
the world. Despite the Alliance's promotion of stability, however, 
North Korea's sinking of the ROK naval ship Cheonan last March and 
other provocations by Pyongyang shows that a comprehensive peace has 
yet to settle over the Korean Peninsula.
                       state of affairs in korea
    North Korea remains a threat to peace and stability on the Korean 
Peninsula and in Northeast Asia as a whole. Pyongyang continues to 
build its asymmetric and conventional military capabilities despite the 
dire economic conditions faced by its people and threatens the use of 
these capabilities as a means to manipulate the international 
community. Its long-range artillery and missile forces are an immediate 
and daily threat to the ROK's capital city of Seoul--which is located 
approximately 30 miles from the military demarcation line--as well as 
to over 23 million people that inhabit the Greater Seoul Metropolitan 
Area (Seoul, Incheon, and Gyeonggi Province). While responsible nations 
of the world are working toward reducing the existence of weapons of 
mass destruction, North Korea continues to develop these weapons and 
the means to deliver them. Pyongyang also develops and maintains robust 
asymmetric warfare capabilities as exemplified by the large size and 
aggressive positioning of its Special Operations Forces. Based upon 
past behavior, North Korea has great potential to proliferate weapons 
of mass destruction and related technologies. Thus, in both 
conventional and increasingly asymmetric terms, North Korea and its 
provocative behavior remains a threat not only to the ROK and United 
States, but also to the broader region of Northeast Asia.
    The threat posed by North Korea received heightened attention on 
March 26, 2010, when it conducted a premeditated and unprovoked attack 
on the ROK naval ship Cheonan. At the time of the attack, the Cheonan 
was patrolling off the west coast of Korea in the vicinity of 
Paengnyong Island. North Korea's unprovoked attack sank the ship and 
took the lives of 46 sailors and several rescue personnel during the 
rescue attempts. In the aftermath of the Cheonan tragedy, the ROK 
Government acted in a responsible manner and led a joint civilian-
military investigation group to determine the cause of the Cheonan's 
sinking that included the participation of experts from foreign 
governments. The investigation conducted by the group was performed in 
an objective, scientific, thorough, and deliberate manner, concluding 
that North Korea was responsible for the ship's sinking. This finding 
was assessed by a special investigative team from the United Nations 
Command Military Armistice Commission (UNCMAC). The special 
investigation team determined that North Korea's action, by failing to 
enforce a complete cessation of all hostilities in Korea, failing to 
respect the waters contiguous to the island of Paengnyong, making an 
armed intrusion and/or the firing of a torpedo into Paengnyong Island's 
contiguous waters, and making a deliberate and premeditated armed 
attack on the Cheonan, constituted major violations of the Armistice 
Agreement. This determination made by the UNCMAC special investigation 
team was endorsed by the Neutral Nations Supervisory Commission. It 
should be noted that our Korean partners and friends greatly 
appreciated the resolution passed by the U.S. Senate last May that 
expressed sympathy to the families of those killed when the Cheonan 
sank.
    In response to this unprovoked act of aggression, President Obama 
directed his military commanders to coordinate closely with their ROK 
counterparts to ensure readiness and to deter future aggression. As a 
result of this direction Secretary of Defense Gates and his Korean 
counterpart Kim Tae-young announced last July that a series of combined 
military exercises would be conducted. These exercises are designed to 
send a clear message to North Korea that its aggressive behavior must 
stop and the United States and ROK are committed to enhancing their 
combined defensive capabilities. The first exercise held in this 
series, a combined maritime and air readiness exercise held from 25-28 
July 2010, was called Invincible Spirit and occurred in the seas east 
of Korea. The naval portion of the exercise featured 20 Alliance ships 
that conducted extensive training in the areas of anti-submarine 
warfare, battle group air defense, and surface warfare training to 
include live-fire exercises. Complimenting the naval events was a 
robust air component composed of over 200 Alliance aircraft flying a 
variety of missions in the skies over and around the ROK. Approximately 
8,000 Alliance Army, Air Force, Navy, and Marine personnel participated 
in the Invincible Spirit exercise.
    Following Invincible Spirit was the Ulchi Freedom Guardian exercise 
that was held from 16-26 August 2010. This annual exercise, like all 
other training events conducted by the Combined Forces Command, was 
designed to improve the Alliance's ability to defend the ROK. The 
exercise was focused on ensuring our readiness to prepare for, prevent, 
and prevail against the full range of provocations on the Korean 
Peninsula both now and in the future. It helped teach, coach, and 
mentor Command personnel on staff and leadership decision-making 
processes.
    Ulchi Freedom Guardian was supposed to be followed by a 5-day anti-
submarine warfare exercise from 5-9 September in the waters off the 
west coast of the Korean Peninsula. Regretfully, the conduct of this 
exercise has been delayed due to adverse weather conditions created by 
a typhoon that swept through the region earlier this month. Once held, 
the focus of this exercise will be anti-submarine warfare tactics, 
techniques, and procedures. The exercise is scoped to send North Korea 
a clear message about its provocative behavior while at the same time 
enhance Alliance capabilities and demonstrate the flexibility and 
interoperability of U.S. and ROK forces. It will be defensive in 
nature, reinforce regional stability, and send a message of deterrence 
to Pyongyang. Planning is ongoing for combined exercises in addition to 
those discussed above that will continue to strengthen U.S.-ROK 
capabilities and reinforce a message to North Korea that its aggressive 
behavior must stop and that the Alliance remains committed to enhancing 
combined defense.
                        strategic alliance 2015
    Since I appeared before you last March, President Obama and 
President Lee of the ROK agreed to adjust the transition of wartime 
operational control (OPCON) until December 2015. Although the United 
States and ROK were on track militarily for OPCON transition in 2012, 
this adjustment will provide the Alliance additional time to 
synchronize a variety of ongoing Alliance initiatives of which wartime 
OPCON transition is just one. The adjustment of OPCON transition also 
allows the ROK and U.S. to ensure Alliance initiatives collectively 
support the U.S.-ROK Joint Vision Statement of June 2009.
    At the U.S.-ROK Foreign and Defense Minister's Meeting last July 
all four ministers agreed to develop a comprehensive Alliance 
transformation plan that goes beyond simply OPCON transition. This plan 
will be called Strategic Alliance 2015 and will be completed and signed 
by next month's Security Consultative Meeting. Strategic Alliance 2015 
will align all of the transformation initiatives currently underway to 
include the ROK's ongoing defense reform program and U.S. 
transformation program, with a goal of building adaptive capabilities 
to deter and defeat any future provocations on the Korean Peninsula and 
to fight and win if deterrence fails. The Alliance is creating an 
overarching and synchronized combined transformation plan that has 
agreed to end states and milestones to ensure a smooth evolution of 
combined defense for the ROK. Initiatives falling under the Strategic 
Alliance 2015 construct include OPCON transition, refining and 
improving combined plans, the definition and development of new 
organizational structures, the procurement and certification of ROK 
capabilities to lead the warfight, and the consolidation of U.S. 
military units located in Korea onto two enduring hubs. End state 
conditions for Strategic Alliance 2015 include ROK assumption of the 
lead for the combined defense by late 2015, synchronization and 
completion of most Alliance transformation initiatives, and collective 
support for the U.S.-ROK Joint Vision Statement. Current plans to 
transition USFK to U.S. Korea Command (KORCOM) will be implemented on 
schedule. As a result of the delay in OPCON transition, however, KORCOM 
staff will be dual hatted as the U.S. contribution to Combined Forces 
Command until the latter organization is disestablished by OPCON 
transition in 2015. After OPCON transition, KORCOM will play a 
supporting role to the ROK Joint Chiefs of Staff.
    The ROK is already in the process of procuring the equipment, 
conducting the training, and making the organizational changes needed 
to eventually lead the warfight. Until all these ROK actions are 
completed, however, the U.S. will provide agreed upon bridging and 
enduring capabilities. By adjusting the date of OPCON transition to 
late 2015 the ROK has more time to field many of the critical systems 
that are part of an ongoing defense reform initiative and to ultimately 
assume lead of the warfight. The Strategic Alliance 2015 plan will 
improve readiness by allowing time for the ROK to establish key 
warfighting headquarters and to acquire critical command and control 
systems and capabilities. As a result, the OPCON transition process 
will progress smoother and ultimately end in stronger Alliance forces.
                           tour normalization
    Another initiative under implementation by the Command is tour 
normalization. In the 2010 Quadrennial Defense Review, the Department 
of Defense committed itself to the long term goal of normalizing the 
stationing of U.S. forces in the ROK from unaccompanied to accompanied 
tours. Indeed, we are in the process of changing U.S. force presence in 
the ROK from being one of forward-deployed to one of being forward-
stationed with the presence of family members. In December 2008 the 
length of tours for servicemembers assigned to Korea changed to 3/2-
year accompanied and 1-year unaccompanied. Since the summer of 2008, 
the number of families in Korea has increased from 1,700 to around 
4,200, with a Command sponsorship waiting list of over 500 
servicemember families. The Command's goal is to tour normalize 85 
percent of the force as the required resources and infrastructure 
become available sometime near the end of this decade. At that time, 
approximately 12,000 servicemember families will be in the ROK and most 
military personnel will be on 3-year accompanied/2-year unaccompanied 
tours similar to the forces stationed in Europe and Japan.
    Tour normalization provides a host of benefits. Implementation will 
improve combat capability and force readiness by decreasing personnel 
turnover--85 percent of the force in Korea today is on a 1-year 
assignment. Tour normalization also demonstrates a greater commitment 
on the part of the United States to the ROK as well as the larger Asia-
Pacific region. By extending tours to 2- and 3-years in length, less 
stress will be placed on servicemembers and their families. Finally, 
the timing for normalization is right, because it can leverage off 
other Command transformation initiatives to include the Yongsan 
Relocation Plan (YRP) and Land Partnership Plan (LPP).
                         humphreys housing plan
    An important part of the Command's transformation program and YRP/
LPP initiatives is housing. Future housing needs at U.S. Army Garrison 
(UASG) Humphreys will be satisfied through the Humphreys Housing Plan, 
which consists of two components: the Humphreys Housing Opportunity 
Program (HHOP) and Army Family Housing (AFH) Military Construction 
(MILCON) funds. The HHOP involves a partnership between the U.S. Army 
in Korea and private industry that will create modern housing 
accommodations for servicemembers and families assigned to the ROK.
    The HHOP draws upon private sector development, financing, and 
operational support for the construction and operation of 1,400 housing 
units at USAG Humphreys under a permitted SOFA Use Agreement without 
the need for Army capital investment. Costing approximately $800 
million, HHOP units will be built on land granted by the ROK under the 
Status of Forces Agreement (SOFA) and is one part of a larger effort to 
construct 2,902 units of housing on the garrison. Units built under 
this program will be rented to servicemembers using their Overseas 
Housing Allowance (OHA) as the means of payment. No guarantees on 
occupancy or terms of rent will be made, however, to the private 
operator. Units constructed under HHOP will include a mix of three, 
four, and five bedroom apartments, each offering ample living space, 
modern interior finishes, comfortable floor plans, and embedded with 
family support infrastructure such as playgrounds, community centers, 
and athletic fields. By leveraging permitted land under the SOFA with 
market demand, HHOP is able to construct modern affordable housing that 
meets servicemember needs at no capital investment cost to the Army.
    In addition to the 1,400 housing units built under the HHOP, the 
Humphreys Housing Plan requests the application of AFH MILCON funds 
toward the overarching plan of building 2,902 units in total on USAG 
Humphreys. If approved, AFH MILCON funding will be used to construct 
1,127 housing units. Both the HHOP and AFH MILCON funding are vital 
components of the Command's objective of accommodating 60 percent of 
the servicemember housing requirement at USAG Humphreys onpost.
                                summary
    Pyongyang's attack on the Cheonan last March shows that North Korea 
remains a serious threat to peace and stability on the Korean Peninsula 
and in Northeast Asia as a whole. In response to the threat posed and 
belligerent actions taken by North Korea, the U.S.-ROK Alliance has 
conducted--and will continue to conduct in the future--exercises 
designed to increase the combined capability, reinforce the message 
that Pyongyang must stop its aggressive behavior, and to demonstrate 
the Alliance remains committed to enhancing its combined defense. U.S. 
commitment to defense of the ROK remains unshakable. As announced in a 
joint statement by Defense Secretary Gates and his Korean counterpart 
Kim Tae-young in Seoul last July, we remain committed to ensuring 
sufficient combined force capabilities and the provision of extended 
deterrence through the U.S. nuclear umbrella, conventional strike, and 
missile defense capabilities while maintaining an enduring U.S. 
military force presence and the current level of American troops in the 
ROK. It is in everyone's interests--to include North Korea--for 
Pyongyang to stop its provocative behavior, cease threatening its 
neighbors, take actions to promote peace and stability on the Korean 
Peninsula, and implement irreversible steps to fulfill its 
denuclearization commitments.
    The Strategic Alliance 2015 plan will better synchronize ongoing 
transformation efforts between the United States and ROK. Additionally, 
the plan reaffirms U.S. commitment to the ROK, ensures both nations are 
better prepared to deter and defeat aggression, and will ultimately 
result in a stronger Alliance. As movement is made towards the plan's 
end state, the Alliance will have the right operational plans, right 
organizational structures, the right capabilities and systems, right 
exercises, and right force structure and alignment to ensure that the 
Alliance grows stronger and is ready to fight tonight across the entire 
spectrum of conflict.
    Thank you and I look forward to your questions.

    Chairman Levin. Thank you so much, General Sharp.
    We're going to have votes throughout the morning, so we 
will just need to try to work through those votes. Let's try a 
first round of 7 minutes.
    General, South Korea showed great restraint in not 
retaliating for the attack on the Cheonan. Were you surprised 
by the relatively mild response to this unprovoked attack?
    General Sharp. Sir, I think starting on March 26 South 
Korea acted very, very responsibly, in that they first, in the 
international community, had to go to determine what caused the 
incident. As you recall, back on March 26 there was clearly 
uncertainty as to what caused the sinking of the ship. Had it 
run aground? Was there a mine? It was unclear.
    What Lee Myung-bak did is he said: ``We have to be clear 
and determine exactly what the cause was.'' So he had an 
international group of experts come in and take a look at it, 
and work through the next several weeks. Then it became clear 
that this was a premeditated attack by North Korea.
    I think that during that time period President Lee made it 
very clear that he was not going to stand for any future 
provocations. But his big focus at the time--and I think 
rightfully so--was determining the exact cause and then working 
this through the U.N. in order to be able to condemn North 
Korea.
    Chairman Levin. When President Lee says he's not going to 
stand for future provocations, what does that mean, given the 
fact that there was no response of a significant nature from 
South Korea to this attack? This isn't just a provocation, this 
is an attack, a premeditated attack.
    General Sharp. Sir, he has done some things and the 
military has done things. They have changed some of their 
tactics and techniques, both along the DMZ and especially out 
in the West Sea, of how they operate in order to be able to 
ensure that this does not happen again and that they are better 
prepared to respond to it in the future.
    I think what he did was work very closely on the diplomatic 
side in order to be able to garner international support to 
blame North Korea and to call on them to stop doing these types 
of acts in the future.
    Chairman Levin. China has been reluctant to publicly 
criticize North Korea for its actions generally, and most 
recently was unwilling to acknowledge North Korea's involvement 
in the attack and sinking of the ship. Let me address this to 
you, Secretary Campbell. Why is China reluctant to hold North 
Korea to account for its actions?
    Mr. Campbell. Thank you, Mr. Chairman. Let me just say very 
quickly in terms of the previous question, I think the fact is 
that South Korea responded across a range of areas: sanctions, 
very strong and clear language to the nation, military steps 
that General Sharp has underscored, and also an effort at the 
U.N.
    I think there was a profound recognition of what are the 
stakes involved. Later this year, South Korea is holding what 
for them is probably the most historic international event in 
their history, the G-20, the first time it's been held in South 
Korea. So in truth, I think this was an act of great 
statesmanship and restraint, a very difficult act, and one 
which I hope the United States supported fully.
    As you indicate, Mr. Chairman, the truth is that the 
Cheonan incident makes clear that China has a very complex 
calculus that they look at on the Korean Peninsula. I think at 
a strategic level the United States and China share some things 
in common. We want to maintain peace and stability on the 
Korean Peninsula. We seek a Korean Peninsula without nuclear 
weapons. But it is also the case that they have a long historic 
relationship with North Korea. They also have over the course 
of the last 10 to 15 years built a very strong relationship 
with South Korea.
    I think through some of the diplomacy they have undertaken 
at the U.N., which, as President Obama and others have 
indicated, we were disappointed in certain circumstances during 
the course of some of that diplomacy. Ultimately, we were 
relatively satisfied with the outcome in terms of the overall 
statement, but the process was quite difficult.
    I think through some of those actions they have complicated 
their relationship with South Korea. I think they're going to 
have to take steps over the course of the next several years to 
rebuild that relationship.
    In recent meetings, both the visit of the Vice Foreign 
Minister here to Washington, Cui Tiankai, and also the visit 
last week with Deputy National Security Adviser Tom Donilon and 
Larry Summers, I think there was an appreciation that the 
United States and China must step up its dialogue on the Korean 
Peninsula, and we are seeking to do so.
    Thank you.
    Chairman Levin. We've heard about stepping up dialogue with 
China for a long, long time, and it hasn't resulted in anything 
as far as I'm concerned. You say that this event and their 
failure to take a decent position in response to the attack on 
the ship you said complicates their relationship with South 
Korea. It sure doesn't help their relationship with us as far 
as I'm concerned. I think it's totally unacceptable that China 
is so unsupportive of strong action against North Korea when 
you have not just a provocation--that word is pretty mild--you 
have an attack, premeditated attack on a ship, that killed 46 
sailors.
    I think it's totally unacceptable and I think China ought 
to be told, in no uncertain terms, that it complicates its 
relationship, not just with South Korea, but with us as well.
    Now, the delay in terms of the transfer of wartime control 
of South Korean troops from 2012 to 2015, it seems to me is 
also troubling. Maybe it's the result of the attack on the 
ship. If that's the main cause, that's one thing. But if it's 
the result of their not being prepared to take on that 
responsibility in April 2012 the way they were supposed to, 
that's something very different, because I think we have to 
expect that South Korea has to step up in terms of costs, in 
terms of responsibility.
    The cost of maintaining our troops is a high cost. The cost 
of just shifting the location of our troops has now gone up 
significantly. The share of that cost was supposed to be 40 
percent, I believe, of the $10 billion cost would go to South 
Korea. It's now $13 billion. We're not asking them, we never 
would and never have, to pay our troops, but when it comes to 
the cost of maintaining our troops in their country, it seems 
to me it's very different.
    I'm troubled by the delay, I must tell you. Was this 
requested, General, by President Lee or was that our idea?
    General Sharp. Sir, that was requested clearly by President 
Lee to President Obama in June, and there were lots of 
discussions about the delay. I believe what it boiled down to 
is President Lee did not feel that 2012, with what's going on 
in North Korea and in other places around the world, was the 
best time to make such a major change in this alliance and to 
disestablish CFC and to go into a supporting and supported 
relationship.
    What we have done is to make sure that the additional time 
between 2012 and 2015 makes us stronger, and I do believe that 
when we come out of this, the synchronization of the 
initiatives that I talked about in my opening statement, we 
will be a stronger alliance because of it.
    We have made very clear to the ROK that this is not 
business as usual. This is not just a delay of 3 years and just 
extend the milestones. In fact, I joined the Two Plus Two in 
July when our two secretaries were there. The base plan for 
Alliance 2015 was agreed to. When Secretary Gates and Minister 
Kim Tae-Young meet on October 8 here in Washington for the SCM, 
they will sign some very detailed annexes which cover the very 
details of what we mean when we say we're going to develop new, 
realistic plans based upon what we see going on in North Korea 
and the region to deal with the full range of possible 
contingencies; that all of our exercises now and in the future 
will exercise against those types of contingencies; that the 
ROK will buy, organize, and train the capabilities they need in 
order to be able to truly lead the warfight by 2015. We'll have 
a comprehensive certification program, not only on OPCON, but 
all of the different programs, and that we will synchronize 
that with our move south and our move down to Camp Humphreys.
    So again, from an alliance perspective, I believe that 
President Obama, after talking with our alliance partner, at 
the request of our alliance partner, agreed to delay it in 
order to be able to help improve our capabilities over the next 
several years.
    Chairman Levin. As you remember, in March this committee 
was informed that the transfer of wartime control of Korean 
troops, not ours but Korean troops, which has been planned for 
so many years, delayed a number of times, we were assured in 
March it was on track for April 2012. So this is another--it's 
a long delay, and I hope it's the last one. But I've heard this 
explanation before and I think it just basically takes some of 
the pressure off South Korea to do what they need to do to 
control their own troops operationally in time of war.
    So I'm troubled by that length of the delay. I think 
symbolically the delay because of the attack may have been 
appropriate, for 1 year. But the 3-year delay to me is 
excessive and sends the wrong signal to the South Koreans in 
terms of what they have committed to do for a decade now, which 
is to be ready to take OPCON of their own troops.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    Secretary Campbell, would you agree that one of the 
strongest measures we could take to affirm our relationship 
with South Korea would be to ratify the U.S.-South Korea FTA?
    Mr. Campbell. I would agree with that, sir.
    Senator McCain. Isn't it true that South Korea is now 
concluding FTAs with other countries?
    Mr. Campbell. That is correct, sir.
    Senator McCain. Which gives us a disadvantage in the long 
run by not having those same kinds of agreements?
    Mr. Campbell. I would simply stand by the first statement 
that you made, yes.
    Senator McCain. Thank you, Mr. Secretary.
    Secretary Gregson, does North Korea have a reliable nuclear 
capability?
    Mr. Gregson. We know that North Korea aspires to a nuclear 
capability.
    Senator McCain. I'll repeat the question: Does North Korea 
have a reliable nuclear capability?
    Mr. Gregson. Not to our knowledge.
    Senator McCain. Does North Korea have the capability to 
deliver a nuclear weapon?
    Mr. Gregson. Not to our knowledge.
    Senator McCain. That's very interesting, because published 
reports indicate that they certainly have a--do they have a 
nuclear capability, then, Secretary Gregson?
    Mr. Gregson. They have demonstrated the ability to detonate 
nuclear devices.
    Senator McCain. Secretary Campbell, one of the reasons why 
we get a little cynical around here is exemplified by the 
comment you made about China. I wrote it down: ``step up its 
dialogue,'' ``step up its dialogue.'' Remarkable statement. The 
Chinese have not only not helped us with Korea over the years, 
they have been an obstacle to increased sanctions. They warned 
the United States that we shouldn't send an aircraft carrier 
into international waters. So we need to ``step up the 
dialogue.''
    Secretary Gregson, do you currently see any evidence of 
technology transfer between North Korea and Iran?
    Mr. Gregson. Yes.
    Senator McCain. Could you in open hearing, or maybe it's 
classified, give us an idea of what kind of technology transfer 
is taking place between North Korea and Iran?
    Mr. Gregson. I'd rather do that in a different session.
    Senator McCain. Do you admit, though, that this is serious?
    Mr. Gregson. Yes. North Korea has demonstrated frequently 
their intent to violate a number of international norms, 
sanctions, and resolutions to transfer forbidden military 
technology to more than one other party.
    Senator McCain. Do you have any information that the North 
Korean submarine that sank the Cheonan was using Iranian 
technology?
    Mr. Gregson. I'd rather go into that in a separate session.
    Senator McCain. Is it possible that the same act of 
``provocation'' could have been committed against a U.S. 
warship just as easily?
    Mr. Gregson. Certainly the ability to attack from ambush, 
to conduct a surprise attack, is a threat, yes, that could have 
been attempted. I would not characterize it as ``just as 
easily.''
    Senator McCain. The North Korean submarine had the 
capability to launch an attack on a U.S. ship just as they did 
a South Korean corvette.
    General Sharp, in light of the usual turmoil that 
accompanies the succession imbroglios that we've watched in the 
past as far as North Korea is concerned, have you seen 
increased acts of provocation on the part of the North Koreans 
and/or military buildup on the other side of the DMZ?
    General Sharp. Sir, not military buildup. The summer 
training cycle they have gone through over the last several 
months has been a normal or maybe even slightly below normal 
summer training cycle. Up to that point before that, the acts, 
especially out in the northwest islands with some artillery 
firings out in the West Sea, were clearly acts to demonstrate--
I also don't like the word ``provocation,'' but to clearly 
demonstrate to the people of South Korea that they have the 
capability to do things at their will. So we have seen those 
continue until very recently.
    Senator McCain. Secretary Gregson or Secretary Campbell, it 
seems that the youngest son will be the successor. Is that the 
tea leaves reading that we get out of this?
    Mr. Campbell. Your guess is as good as ours, Senator.
    Senator McCain. That's an interesting comment on our 
intelligence capability in North Korea.
    General Sharp, what is, in your view, the readiness and 
capability of the North Korean military?
    General Sharp. Sir, it's an extremely large force that is 
positioned very close to the DMZ, and we believe that if they 
wanted to do an all-out attack they could do that with very 
little notice. We have seen them over the last several years 
primarily putting their money into their ballistic missile 
force, their nuclear capability, and their special operating 
forces. They have not put as much money, we do not believe, in 
their conventional forces.
    But when you really take a look at it, with that many 
millions of North Korean soldiers that have one mission, to 
attack south and to kill as many as you can, you don't need a 
whole bunch of technology to be able to do that, and money 
going into it. We still see the great majority of North Korean 
money going into their military-first policy.
    Senator McCain. That, in the scenario, would be a 
devastating artillery attack on Seoul?
    General Sharp. Sir, they clearly have well over 200 long-
range systems that could strike the heart of Seoul today 
without moving either their weapons or their ammunition, and 
with a city of 28 million that's within that range. We work 
very hard in our war plans to be prepared to quickly take that 
artillery out, both by counterfire artillery and by joint 
fires, by our naval and our air forces, both on the ROK and the 
U.S. side. We work that very hard throughout the year in many, 
many different exercises.
    But I have to be realistic. We're not going to be able to 
stop all that artillery and there will be a lot of destruction 
if they choose to do that.
    Senator McCain. Secretary Gregson, if we feel it necessary 
will we continue to send aircraft carriers and other naval 
vessels into the region, which China has ``warned'' us that we 
shouldn't send carriers or naval power into these 
``international'' waters?
    Mr. Gregson. Yes, we will. The ability to exploit freedom 
of the seas has been a principle of our republic since the 
beginning.
    Senator McCain. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman. Thanks to you and 
Senator McCain for convening this hearing. It reminds us, I 
think, that not so long ago, certainly as the last century was 
ending and we were looking to this century, we were saying that 
our focus would be in the Asia Pacific region in terms of the 
opportunities and the security challenges. Needless to say, 
because of September 11, 2001, our focus has been on the Middle 
East and South Asia.
    But that doesn't mean that history has stopped moving in 
the direction it was moving in Northeast Asia and the Western 
Pacific. This area remains, as the opening statements of the 
chairman, the ranking member, and your statements and questions 
and answers now reveal in some detail, a very dynamic, 
dangerous, and important area for our national security.
    We are a Pacific Nation and our presence there is not only 
critically important to our security and our economic well-
being, but to the security and economic well-being of the 
region. It's important to say that so many of the countries in 
the region depend on our presence there.
    So I appreciate the opportunity that the leadership of this 
committee has given us to focus on this, and of course our 
relationship with South Korea just gets better and better. This 
is an increasingly strong and important alliance to us of real 
mutual benefit.
    I couldn't agree more about the strategic importance of the 
Korea FTA. I do want to say for the record that Senator Webb 
and I reached out to some of our Democratic colleagues in the 
Senate to show that there was bipartisan support and 10 of us, 
a month or so ago, sent a letter to President Obama urging him 
to expedite movement of the FTA this year through Congress.
    I want to thank the witnesses for their testimony, also for 
their leadership, particularly in the time since the North 
Korean attack on the Cheonan. I appreciate President Obama's 
strength and solidarity with President Lee and our allies in 
South Korea in the aftermath of the Cheonan and all that we've 
done.
    I must say that this morning in the New York Times former 
President Carter had an op-ed piece which contrasted so 
dramatically and disappointingly for me with the policy that 
the administration has followed, in which he says: ``North 
Korea wants to make a deal.'' There's one really stunning 
omission here. President Carter finds it possible to say that 
the North Koreans he spoke to expressed concern about several 
recent American actions, including unwarranted sanctions, 
ostentatious inclusion of North Korea among nations subject to 
nuclear attack, and provocative military maneuvers with South 
Korea. But he fails to mention the Cheonan incident and that 
certainly puts in doubt his conclusion that the leadership of 
North Korea that he spoke to is anxious to reengage again.
    In this regard, I want to read from a great statement that 
I thought Secretary Gates made at the Shangri-La conference in 
Singapore last year: ``I think that everyone in the room is 
familiar with the tactics that the North Koreans use. They 
create a crisis and the rest of us pay a price to return to the 
status quo ante. As the expression goes in the United States, 
I'm tired of buying the same horse twice.''
    Secretary Gregson, Secretary Campbell, in my opinion 
President Carter is asking us to buy the same horse that we 
bought many times before. It seems so inconsistent with the 
direction of the administration policy regarding North Korea 
that I wanted to invite either your reaction to the Carter 
statement, which I think is awful, or your statement of where 
the administration is on North Korea today.
    Secretary Gregson or Secretary Campbell?
    Mr. Gregson. We were very pleased with Secretary Gates' 
comment at the Shangri-La dialogue. Part of it was prepared, 
part of it was pure Secretary Gates, so that was not a staff 
product. That was Secretary Gates.
    We in DOD believe that it has been North Korea's history to 
create a crisis, to conduct an attack, and then we make 
concessions to bring them back to the table for dialogue, as 
Senator McCain characterized. We're determined not to do that 
this time. We have the sanctions in place that we think can 
make a difference. As General Sharp eloquently discussed, we're 
reinforcing our alliance capabilities in every way possible. We 
are pressing on the international community to maintain a 
consensus that will ameliorate or stop the illegal North Korean 
activities, and we want to see a meaningful change, meaningful 
reactions by North Korea, before we even begin to have 
negotiations.
    If they will negotiate and begin to do it in good faith, 
with all that lies under that, then many things are possible. 
But as Secretary Gates eloquently capsulized, we don't want to 
buy the same horse again.
    Senator Lieberman. Thank you.
    Secretary Campbell, do you want to add to that?
    Mr. Campbell. Yes, thank you, Senator. Frankly, I too was 
surprised by the omission of the Cheonan in President Carter's 
op-ed today. I must say we were grateful that he was successful 
in his mission to free the American citizen, Mr. Gomes, who had 
wandered into North Korea. We have gratitude for that and 
obviously for much of the work that he does.
    I think the statements that he put out from the North 
Koreans are well known to us. We've heard many of these before 
in previous interactions with the North Koreans. I would just 
note that the sanctions that he reports that the North Koreans 
are concerned by are not simply the sanctions that have 
recently been put in place by our Treasury Department, but more 
specifically the U.N. sanctions, which China was a strong 
supporter of, 1874. Those have really bitten and caused some 
anxiety among the senior leadership in North Korea.
    I think it would be fair to say that we're looking for 
several things. One is some degree of reengagement between 
North and South Korea. That is an inevitable process that must 
take place, and we're looking in many respects to the lead from 
South Korea on how that process goes forward.
    But, as General Gregson has underscored, we are looking not 
to repeat the process of the last 10 or 15 years. We are 
looking for a sincere and clear signal from the North Koreans 
that they want to embark on a real process of negotiations on 
its nuclear and other capabilities.
    I must say that I think we're trying to exhibit what 
Secretary Clinton describes as strategic patience. I think to 
date we've been relatively successful in this regard.
    Senator Lieberman. Thank you.
    My time's up.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator LeMieux.
    Senator LeMieux. Thank you, Mr. Chairman.
    First of all, thank you to all three of you for your 
service. I want to start by asking a question to Secretary 
Gregson. The firing upon the Cheonan by the North Koreans, do 
you consider that an act of war?
    Mr. Gregson. It can be characterized as such, yes.
    Senator LeMieux. Certainly if one of our military ships was 
fired upon by the North Koreans, we would consider it an act of 
war, wouldn't we?
    Mr. Gregson. Yes.
    Senator LeMieux. We have a treaty, a mutual defense treaty, 
with the South Koreans. In the firing upon the ship, and then 
the evaluation that determined that it was the North Koreans 
who in fact fired upon the ship, has there been any evaluation 
of our obligations under that treaty?
    Mr. Gregson. Continuous obligations. The decision on how to 
respond is an alliance decision, with due consideration for 
achieving our overall goal, which is protecting the ROK and 
protecting peace and stability in Asia.
    As we know, the Cheonan is not the first provocation. North 
Korea is a country that attempted deliberately to assassinate 
the cabinet of the ROK, that executed a deliberate attack on 
the Blue House, their equivalent obviously of our White House. 
Since 2002, we've seen an uptick or an increase in attacks of a 
different kind, of a lesser impact than that on the Cheonan, of 
course--seizure of fishing ships, things like that.
    This is a consistent type of behavior from North Korea, 
unfortunately.
    Senator LeMieux. Now that the information is in, the 
analysis has been concluded that this was an attack from the 
North Koreans, do you expect some kind of military response 
from South Korea?
    Mr. Gregson. I expect that we will continue to stay in 
close consultation with the ROK on actions that we will take in 
the future. I agree with General Sharp's characterization that 
President Lee Myung-bak demonstrated tremendous statesmanship 
under considerable pressure in the reaction of the ROK to this 
attack.
    Senator LeMieux. This attack and the other ones that you 
just mentioned, aren't they sufficient justification for us 
to--and perhaps this is a question for Secretary Campbell--put 
North Korea back on the state sponsor of terror list?
    Mr. Campbell. Our judgment was that these provocative 
actions required a separate action, and so we have issued an 
Executive order, very broadly conceived, that identifies a 
whole range of activities in North Korea. So yes, in many 
respects this is a definitional issue and so I would actually, 
Senator, agree with you.
    Senator LeMieux. This was an act of terrorism, wasn't it?
    Mr. Campbell. Act of war, actually.
    Senator LeMieux. Are we moving forward on putting them back 
on the list?
    Mr. Campbell. We have a process that's underway that is 
specific associated with looking at various actions that North 
Korea has undertaken in the past and could undertake in the 
future that are involved with international terrorism. That is 
different than the specific act associated with the sinking of 
the Cheonan. So we have taken very specific actions with regard 
to the sinking of the Cheonan with the new Executive order that 
is extraordinarily broad, very deep, a variety of military 
steps--exercises, enhanced deterrence.
    Actually, I think the decision on OPCON transfer was the 
right one. We have done a number of things in Northeast Asia to 
send a very clear signal of our direction forward.
    Senator LeMieux. But does that mean that we're putting them 
back on the state sponsor of terror list or we're not?
    Mr. Campbell. I think I've answered, I've tried to answer 
your question.
    Senator LeMieux. The answer is no or yes?
    Mr. Campbell. We have a process, an ongoing process, that 
is associated with evaluating data associated with what North 
Korea is doing in a global context associated with terrorism. 
The sinking of the Cheonan----
    Senator LeMieux. Because that's separate and apart, then. 
But have you, separate and apart from that attack, evaluated 
whether or not to put North Korea back on the list?
    Mr. Campbell. We are constantly evaluating that, yes.
    Senator LeMieux. Is there a decision point that you see 
coming forward? Is there a time when I should expect that you 
will make a decision?
    Mr. Campbell. I think that is an issue that we could 
address in private session, yes. Thank you.
    Senator LeMieux. Okay.
    Mr. Secretary, Senator McCain was asking you about the FTA 
and the importance of it, and you agreed the importance of 
having that FTA entered into. We also have one pending with 
Colombia and Panama. Do you know when the administration is 
going to send these agreements to Congress to have them 
approved?
    Mr. Campbell. I don't know, Senator. It's outside of my 
area of responsibility in terms of Latin America. I do know 
that President Obama has indicated his desire to move in the 
near term on the Korea FTA, and I would just associate myself 
with your comments about the importance. It's not only 
important at an economic level, but it has enormous strategic 
consequences as well.
    Senator LeMieux. I was talking to our National Security 
Adviser and he was telling me that he believed it was a 
national security issue for Colombia certainly. Would you agree 
that it's a national security issue for South Korea that we 
enter into this agreement?
    Mr. Campbell. If I could just even go further, Senator, I 
think it's just not a national security issue for South Korea; 
I think it is for the United States. I would just underscore 
one thing. I've spent the last year and a half out in Asia 
considerably, and there are doubts about our staying power and 
our ability to play the dramatic leadership role in the future 
that we played in the past. It requires an all-hands-on-deck 
approach. It has to be multifaceted. It has to be intense 
diplomacy, not just bilateral but multilateral. It requires the 
kind of military effort that General Sharp indicates. Also it 
requires the kind of initiative that you underscore on the 
Korea FTA.
    So, yes, it's not just for the South Koreans. It's for us 
as well.
    Senator LeMieux. Thank you very much.
    I want to switch gears a little bit and talk about 
succession plans for North Korea, allegedly the third son being 
put in line, Kim Jong-un. If the succession doesn't happen or 
for some reason North Korea fails, do the Departments of State 
and Defense have a strategy for trying to ensure that this 
nuclear material does not get lost or turn up in the hands of 
someone else? Is there a security strategy for that?
    Mr. Campbell. I'd like to just apologize at the outset. I 
actually made a flip answer to Senator McCain's very important 
and timely question about the succession. The truth is, though, 
what I was trying to underscore, is that in fundamental ways 
North Korea is still a black box. We have some glimpses and 
some intelligence and the like. But the truth is oftentimes, in 
retrospect, some of that intelligence has proven to be wrong. 
It's a very, very hard target, probably the hardest target that 
we've faced in the global arena.
    I will just tell you that we have to be prepared for all 
circumstances, and I mean all circumstances, and the level of 
interaction that is undertaken inside the U.S. Government is 
intensive, and that extends also to a dialogue and extremely 
close coordination with South Korea and Japan. So I would 
answer your question that way.
    Senator LeMieux. If I could just conclude, Mr. Chairman, 
with a question to General Sharp.
    General, you and I have spoken before about the status of 
the military housing for our young men and women who are 
serving us there. Are you getting the MILCON dollars you need 
to make sure that there are good conditions in the houses for 
our folks who are serving?
    General Sharp. Sir, for where we are right now we are okay. 
We are working through within DOD, some options on how to be 
able to continue providing those houses as we move down to Camp 
Humphreys. I mentioned in my opening statement a couple of the 
options DOD is looking at right now.
    I actually have some meetings this afternoon to discuss 
them with several members of the appropriate committees to get 
your thoughts, because it is critical that we take care of our 
servicemembers and their families. We've all talked here so far 
this morning about how important it is for us to maintain our 
commitment in Korea and to demonstrate that, not only to the 
Koreans, but to North Korea and to China. I think clearly 
having our families there, having the force level there, 
demonstrates we're going nowhere. So being able to properly 
take care of them with housing is absolutely critical, and we 
will have to work through very quickly how to be able to do 
that as we move down to Pyongtaek and to Camp Humphreys.
    Senator LeMieux. We share that priority with you. So thank 
you for your commitment to that.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator LeMieux.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Thank you, gentlemen.
    Secretary Gregson and Secretary Campbell, first, have we 
been able to establish the motivation, the rationale, the 
objective, of the attack on the South Korean vessel by the 
North Koreans? Or is that something that's still difficult to 
determine? Was it a bureaucratic miscue? Was it directed on 
high? Do we know anything about it?
    Mr. Gregson. Senator, there are two theories. One is that 
it's a reaction to the November 2009 naval firefight between 
forces of the ROK and North Korea. The other theory is that 
it's somehow tied into the mysterious succession politics 
inside North Korea. I'm not personally aware that anybody has a 
definitive answer beyond those two competing theories.
    Mr. Campbell. Senator Reed, could I just add a third to 
that if I could? I first of all associate very closely with the 
answer of General Gregson. But I think that, as General Gregson 
underscored, this is not the first time something like this has 
happened. They have happened periodically.
    I think you find, if you look at a calendar of events, 
these kinds of provocations tend to occur before major events 
in South Korea that highlight the success of South Korea, the 
Seoul Olympics and the like. Again, as I stated at the outset, 
the upcoming G-20 is a very big deal, a very big deal for the 
South Koreans. It's the arrival of South Korea on the global 
stage, probably again the biggest diplomatic achievement in 
their history. One could imagine that this would play into part 
of the dynamic that we've seen in North Korea.
    But I have to underscore that in many respects this is a 
black box. We really don't know very much about the 
motivations, ultimate goals and ambitions behind such a 
dangerous and provocative act.
    Senator Reed. Let me change gears. I understand--and 
correct me if I'm incorrect--that the Chinese were not aware 
beforehand of this attack, that they had no information either. 
It seems clear from every rational source that this was a 
torpedo attack by the North Koreans. What's the motivation for 
the Chinese to reject what is obvious, what is dangerous, and 
also something that apparently they weren't even tipped off to?
    Any views on that? I know we're trying to make estimates 
about very difficult issues.
    Mr. Campbell. It is our best judgment that China had no 
foreknowledge of the action, as you indicated, Senator. I tried 
to indicate at the outset that we believe that the calculations 
for the Chinese on the peninsula are complicated, very complex. 
They have been supportive in the past of certain initiatives. 
UNCR 1874 in the aftermath of the nuclear weapons detonation is 
a very powerful signal to the international community, 
including China.
    They've taken other steps. They've played, I think, an 
important role during certain critical junctures in the Six-
Party Talks. I wouldn't want to put words in the mouths of 
Chinese friends. I think they believe that this is an 
incredibly critical period, perhaps a somewhat uncertain period 
in North Korea, and they have told us that they believe that 
certain steps could drive North Korea to the wall and that was 
not in their strategic interests.
    Senator Reed. We talk about the complicated dynamics for 
the Chinese. We also have complicated dynamics. This is a 
general question and it might just elicit a nod, but to what 
extent are our strategic objectives complicated or indeed 
compromised by our economic relationship with the Chinese? 
There are issues like this where we could take a much firmer 
course with the Chinese, but we have other issues at play. Do 
you want to--will I get more than a nod?
    Mr. Campbell. If I could say, I understand your question, 
Senator. But I actually think those considerations do not come 
to play in this regard. If you listen carefully to how General 
Gregson answered the question, our most important guiding 
principle on the Korean Peninsula is the objectives, the wishes 
and desires of the South Korean people. So what we have tried 
to do is steer our course with the South Koreans, and that has 
been our primary objective in this regard.
    The truth is that we took a very strong line at the U.N. 
and we worked very hard with our allies and others to get the 
Presidents' statements through. This was tough diplomacy, very 
challenging diplomacy. But the most important consideration for 
us on the peninsula really is to ensure that we are closely 
aligned with the South Koreans in all our strategies.
    Senator Reed. General Gregson, do you have a comment?
    Mr. Gregson. Yes, I do, thank you. I concur completely with 
Secretary Campbell's statement. I'd also like to emphasize that 
there is a very strong alliance consensus for our way forward 
and has been since before the Cheonan incident. The consensus 
accelerated after the May 2009 North Korean alleged nuclear 
device detonation and the missile test, certainly accelerated 
with the Cheonan. That's the cooperation is U.S., ROK, and 
Japan; ROK of course most directly affected by the Cheonan 
attack, but Japan has also been victim of kidnapping actions by 
North Korea, has been victim of attempted incursions by North 
Korean infiltration vessels, various things. So they are very 
closely aligned here.
    All three of our nations are firmly in agreement on the 
importance of peace, stability, deterrence in Northeast Asia 
and all three of us consult continuously on the ways forward, 
the actions to take, our sensing of the situation.
    On that alliance consensus, we have been building the 
international consensus to constrain North Korea's attempted 
transfer of illegal materials to other countries of interest 
and things like that.
    This abiding consensus allows us to take a solid alliance 
approach to these various actions by North Korea and allows us 
also to have an alliance consensus to the reported--underline, 
``reported''--gestures lately by North Korea to want to talk 
about various matters.
    Senator Reed. Very good.
    My time has expired. Let me commend General Sharp for his 
leadership and for that of his soldiers, sailors, airmen, and 
marines. Thank you very much, sir, and we look forward to 
seeing you soon. Good luck.
    Thank you, gentlemen.
    Chairman Levin. Thank you, Senator Reed.
    We have a vote on. Senator Reed, are you going to want to 
have a second round? Do you need a second round?
    Senator Reed. The chairman has been most gracious. I have a 
reprieve, unfortunately, gentlemen.
    Just two quick questions, one to General Sharp. In your 
plans going forward, you are pulling the bulk of your forces 
away from the DMZ as I understand it, but your training areas 
historically are close to the DMZ. Are you going to have some 
issues with training, particularly in a country that is rapidly 
developing and urbanizing and wealthy like Korea?
    General Sharp. That's part of the plan, sir. Actually, we 
are keeping all of our training ranges, Rodriguez Range and the 
other ranges that we have up near the DMZ right now. In fact, 
we're continuing to modernize those ranges.
    The move south has been accounted for. There will be a 
railhead as part of the plan put into Camp Humphreys and a rail 
line going up. So it will be a very similar movement to what we 
do in Germany to get to De Graef and to Hohenfeld. So we have 
accounted for that, sir.
    Senator Reed. Very well.
    Just a final question to the Secretaries. Just a general 
evaluation of the sanctions, their effectiveness, the 
cooperation. Particularly--again, I don't want to be a broken 
record--the cooperation by the Chinese. I do sense that the 
Japanese, the South Koreans, and the United States are clearly 
shoulder-to-shoulder, but that's only part of the team that you 
need. So can you just give me a quick reaction, General 
Gregson, Secretary Campbell also?
    Mr. Gregson. I think we're very encouraged with Chinese 
support on that front.
    Senator Reed. This is the question I got the nod. So thank 
you very much.
    Thank you.
    Chairman Levin. Thank you very much, Senator Reed.
    I'm just going to ask a few questions, and if none of my 
colleagues are back when I'm done, because I have to go vote, 
too, then we're going to recess for a few minutes until a 
colleague comes back.
    General, you've indicated that continuing attempts to 
develop its nuclear and missile capabilities by the North is 
your number one concern. Is there an appropriate balance in 
your judgment between our contributions to missile defense in 
the region and South Korean contributions? Or do you look for 
South Korea to increase its contribution to regional missile 
defense?
    General Sharp. Sir, South Korea has recently bought 
Patriots. They will have several more of them and increased 
missile capability delivered over the next several years, to 
include some command and control additional things to be able 
to link them in with ours. They have now two Aegis ships. They 
just launched their second Aegis ship about a week ago and have 
another one in the railyard. They are increasing that 
capability.
    We are trying to work very hard--in fact, Secretary Gregson 
has worked very hard--to try to work with the three countries 
of South Korea, the United States, and Japan to do some better 
coordination in order to be able to have regional type 
ballistic missile defense, and we're working through those 
initiatives.
    Chairman Levin. General, you've indicated that our tour 
normalization program demonstrates a commitment to South Korea 
and to the region. How do you respond to those who suggest that 
we shouldn't be using our military families to demonstrate that 
commitment in a potentially dangerous location?
    General Sharp. Sir, I believe that the long-term tours of 
our servicemembers in Korea greatly increases my combat 
capability if I don't have to train a new soldier every year. I 
believe that Korea is a safe place for our families to live and 
that we have very detailed and very exercised Noncombatant 
Evacuation and Repatriation Operations (NEO) plans. That would 
be a huge task if we had to NEO everyone out, but I'm confident 
that we could do that.
    I think that the deterrent value of our military, the 
28,500, and the demonstration that we are here for the long 
run, that not only we say in words but we say it in our actions 
of having family members and properly taking care of them over 
there, is a strong deterrent value. I was in Fulda in the mid-
1980s with families that helped and that demonstrated that we 
were staying in West Germany and weren't going to stand for the 
threat of the Soviet Union at the time.
    Our obligation, my obligation as the commander there, is to 
watch very closely for indications that it's time to get those 
family members out of harm's way, so that we can truly be 
prepared to defend the ROK. I take that very seriously. We work 
it very hard in exercises throughout the year. We have a very 
detailed plan for NEO that we have worked, not just on the U.S. 
side, because it will require a lot of Korean support. But the 
plan is very, very detailed and South Korea also understands 
that responsibility.
    So I believe that tour normalization is extremely 
important, not only to our families, but more importantly to 
our capability and to our commitment to the region.
    Chairman Levin. General, what's your assessment of the 
current level of readiness of the Combined Forces to respond to 
aggression from North Korea?
    General Sharp. Sir, I think the Combined Forces is ready to 
respond to aggression from North Korea. We just finished up in 
August Ulchi Freedom Guardian Exercise, our annual summer 
exercise, which was based upon an attack from North Korea. As I 
stated in my opening statement, we have expanded our exercise 
program to really take a look at how we think North Korea would 
do some limited attacks, what sorts of different incidents 
would they do prior to a conflict to try to prevent us from the 
reinforcements that are going in, to try to prevent us from 
taking our defensive positions, some things that they could do 
very early on.
    The exercise went very well. I was very pleased with the 
fact that we're getting at some of the much more difficult 
issues, but the very realistic issues. I am confident that 
we're prepared for an aggression, whether it's limited or all-
out from North Korea.
    Chairman Levin. Would you say we're in a high state of 
readiness?
    General Sharp. Sir, we are in a high state of readiness.
    Chairman Levin. As I mentioned before, General, the cost of 
moving U.S. forces originally further south was $10 billion. 
The South Korean share was $4 billion. The cost is now 
estimated at about $13 billion. Is that a fairly firm estimate 
now or is that going to continue to climb? Does the South 
Korean share go up? In other words, are they going to take on 
about 40 percent of that additional $3 billion? Is that part of 
the deal?
    General Sharp. Senator, when we agreed in the Yongson 
relocation program to move out of Seoul, the ROK said they were 
going to pay for all of those costs, minus the housing that we 
have off post. They are doing that.
    We also said when we wanted to move the Second Infantry 
Division, which is called the Land Partnership Program, and 
consolidate them at the same location, the Koreans agreed to 
get the land, but they said we had to create the facilities. 
The costs of those facilities are being borne in combination by 
both the United States and the ROK.
    This actually is a big question going on in the news over 
in Korea right now, about are we using some of the burden-
sharing money in order to be able to build what we need down at 
Camp Humphreys.
    Chairman Levin. I'm not sure what your answer is. I'm 
afraid I'm going to have to cut you short because I have to 
vote. I'm sorry to do that. But if the increased cost overall 
goes from $10 billion to $13 billion and the original Korean 
share as I understand it was $4 billion, is that $4 billion 
going to increase proportionately now that the total is $13 
billion or not?
    General Sharp. Sir, the Koreans are paying a lot more than 
$4 billion.
    Chairman Levin. So that's your answer, the $4 billion 
figure is wrong?
    General Sharp. That's right.
    Chairman Levin. Now, in terms of the increase in the 
estimated cost, will they pay a proportionate share of that 
increased cost?
    General Sharp. Sir, I'd rather cover that in a closed 
session.
    Chairman Levin. Okay. Or for the record.
    General Sharp. For the record, yes, sir.
    Chairman Levin. I hope that's not a classified issue.
    General Sharp. No.
    Chairman Levin. But if you can give us that for the record, 
that would be more than satisfactory.
    General Sharp. Yes, sir.
    [The information referred to follows:]

    Requirements established for moving U.S. forces in Korea under the 
Yongsan Relocation Plan (YRP) and Land Partnership Plan (LPP) have 
evolved over the years as conditions change. In particular, certain 
delays due to factors such as securing the necessary land, acquiring 
the program management consortium, and negotiations over better defined 
cost estimates have created cost and schedule growth. The Republic of 
Korea is committed to paying its appropriate share of this cost growth 
in accordance with the relevant YRP/LPP agreements and associated 
arrangements.

    Chairman Levin. Okay. We're going to be in recess now until 
a colleague comes back, which I expect to be any minute, 
hopefully not more than 10 minutes. But let's say we will 
recess for 15 minutes or when a colleague comes back on either 
side of the aisle, whichever is earlier.
    [Recess from 11:03 a.m. to 11:10 a.m.]
    Senator Lieberman [presiding]. The hearing will come back 
to order. I thank all of you, my colleagues. I went and voted 
on the first. There's a second. I think by the time I finish my 
questioning somebody else will be back.
    I thank you very much for your testimony. General Sharp, I 
had a different reaction than Chairman Levin did to the 
transfer, to the delay of the transfer of OPCON. My own feeling 
was, as I heard it, that it was not really related to the 
capabilities of the military of the ROK, but more to the 
surrounding political and diplomatic environment, the concern 
about various anniversaries coming up and North Korea, 
provocative action by them, elections coming in the United 
States, perhaps transition of power in China--just an unsteady 
time in the region, and going back to what Secretary Campbell 
said about the doubts in the region about our staying power, 
that motivated that delay mostly. That's why I greeted it 
positively.
    Was I right? In other words, am I right that not any 
significant part of the delay is based on a concern about the 
capabilities of the military of the ROK?
    General Sharp. Sir, over the last 2 years we have gone 
through numerous exercises to ensure that the military, both on 
the ROK side and the U.S. side, is properly organized and 
trained and had the right plans in order to be ready for 17 
April 2012. Very detailed certification checklist that was done 
by external evaluators.
    I had to report that to Secretary Gates and Minister Kim 
Tae-Young at the yearly SCM. My report was, and I still hold by 
it, is that militarily we were on track in order to be able to 
move into a supported-supporting relationship by 2012.
    I was not there, but my understanding when President Lee 
and President Obama talked back in June was that they talked 
much broader than just on the military side; all the other 
incidents, some of which that you met, I'm sure, came up in 
that discussion; and that President Obama agreed for the sake 
of the alliance for the ability to be able to continue to 
strengthen the alliance over the next 3 years, he agreed to 
that delay.
    What Secretary Gates charged us to do is then to make it a 
much more comprehensive plan than simply moving into a 
supported-supporting relationship, so that the synchronization 
will allow us to do some things over the 3-year period to get 
us stronger versus some things we would have done in parallel. 
That's what the current plan is that we'll codify here on 
October 8 when the Secretary and the Minister get together 
again.
    Senator Lieberman. Okay, I appreciate that answer.
    Secretary Campbell, let me ask you to pick up some on your 
comment about some of the doubts in the region about our 
commitment to stay strongly in the region. I think you raised 
it around the Free Trade Act as a way for us to express in one 
way our commitment to the region. I want to come at this from a 
slightly different path, which is China.
    Regarding the aggressiveness of the Chinese both toward us 
and their neighbors. I was interested that recently, and I 
think for the first time publicly, Prime Minister Singh of 
India commented on that, questioning the greater aggressiveness 
of the Chinese. They're obviously spending a lot of money to 
build up their military. I noticed Andy Krepinevich had an op-
ed piece this week in which he worried publicly about the 
danger that in a few years China will have the capability to 
make it much harder for us to project power and defend our 
allies in the Asia-Pacific, and that their military buildup 
seems to be specifically built around area denial and an anti-
access strategy.
    So I wanted to invite your general comment on the way in 
which China's military buildup and more aggressive posturing 
fits into your concern, which I agree with, that there's 
concern in the region about whether we're there to stay.
    Mr. Campbell. Thank you, Senator Lieberman. If I may, let 
me just harken back quickly to the question that you asked 
General Sharp. My own sense is that your assessment of the 
complex motivations behind the decision are completely 
accurate. So I would associate myself with what you are 
indicating going forward, a very complex time in the region.
    There are many factors at play in the Asia-Pacific region. 
One of them is the extraordinarily rapid ascent of China as a 
global player and a global power, a country that withstood some 
of the challenges of the global economy in the last several 
years, very well positioned accordingly.
    We are in a situation where we have a very complex 
relationship with China. There are a number of areas that we're 
seeking to work very closely with them on: climate change; 
issues associated with nonproliferation; they've worked with us 
on Iran; again in circumstances on the Korean Peninsula; and in 
certain circumstances associated with piracy and the like.
    So there are areas that we have been able, oftentimes 
through exerted diplomatic effort, to work closely together. 
There are invariably areas where we compete. We seek to compete 
in peaceful ways. But at the same time, as the Pentagon 
military report recently stated and as Secretary Gates has 
underscored publicly at Shangri-La and elsewhere, there are 
some military developments that we seek greater clarity into, 
that have raised concerns about our own forward deployments 
overall.
    There have been a number of interactions with China in 
recent months on issues that are of mutual concern, and some of 
those interactions can be quite tense. Our overall desire, 
however, is to maintain a steady-as-she-goes relationship with 
China, with the recognition that there will inevitably and 
invariably be areas where we have differences, and sometimes 
those differences are quite intense.
    I would simply say I would use a slightly different word 
than ``aggressiveness.'' I think they are more ``assertive'' on 
the global stage.
    Senator Lieberman. Right, and in the neighborhood.
    Mr. Campbell. In the neighborhood, yes. But I think it is 
also the case that I have never seen an environment in Asia in 
which the United States is more welcomed to play a more 
significant role, not just in Northeast Asia, where we've 
talked primarily today, but Southeast Asia, as well. I think 
one of the desires of the administration is to take a 
multifaceted approach, deeper integration in regional 
diplomacy, in multilateral institutions, working with India, 
drawing India in more to the Asia-Pacific region, working 
towards consequential diplomacy with China.
    This is not a relationship, Senator, I think as you know, 
that the United States has much experience with. We've had a 
monochromatic kind of relationship in the past with the Soviet 
Union. That's not what the relationship is like with China. 
It's deep, it's complicated. There are areas of cooperation. 
There are areas of discord. How we manage that is going to be 
the primary diplomatic challenge for the United States over the 
course of the next generation.
    Senator Lieberman. I appreciate the answer.
    I don't want to take the time today, but at some point we 
all ought to come back together and talk about how we should 
respond if, in fact, what the Chinese are basing their military 
buildup on is--and I know we're already focused on this to some 
extent--an area denial and anti-access strategy.
    But I want to move on to another subject. You said, 
Secretary Campbell, earlier, and I agree with you, that our 
historic relationship and alliance with Japan has been at the 
center of our policy and relations in this part of the world, 
and that remains so. Obviously, we're very grateful for the 
extraordinary depth, growing depth, of our relationship with 
South Korea.
    In that regard, I wanted to say that I've been impressed by 
the degree of trilateral cooperation between the United States, 
South Korea, and Japan in the wake of the Cheonan attack, 
including the dispatch of those Japanese advisers to the U.S.-
ROK exercises in July. I wanted to ask any of the three of you 
or all of you, if you want, to speak to the efforts that we are 
making now to improve trilateral security cooperation among 
these three great democracies and whether there are 
opportunities that you see to institutionalize greater 
trilateral cooperation going forward.
    Mr. Campbell. First of all, thank you for the question, 
Senator. I have to say that in many respects the architect and 
implementer of this extraordinarily important trilateral 
interaction on defense and diplomacy is General Gregson.
    I want to say one thing very quickly about our relationship 
with Japan. I think too often, particularly in media reports, 
there is a focus on one issue and only one issue, this very 
challenging issue associated with a base in Okinawa, Futenma, 
and what is often overlooked are the extraordinary commitments 
and contributions Japan has made.
    So when you ask people who is the second, behind the United 
States, largest contributor to various reconstruction and other 
efforts in Afghanistan, very few people will realize that it's 
Japan. That is a decision that was taken by this new government 
in Japan.
    Recent sanctions put in place against Iran; who is one of 
the leading countries that got out in front of this? We didn't 
have to twist their arms. Japan. Very much unlike a situation 
that we faced in the past.
    Which country has put money behind various initiatives to 
deal with the global issues associated with climate change in 
the aftermath of Copenhagen? Japan.
    Which country has contributed to the piracy efforts in the 
areas around Africa? Japan.
    Who has stepped up considerably with the kind of support 
necessary for us to sustain our military and security 
relationship in Northeast Asia? Japan.
    So, unfortunately in this environment, where we are working 
on a very challenging issue in Okinawa, Japan has not gotten 
the credit it deserves for really working, not only closely 
with the United States, but through General Gregson and others 
at the Pentagon, much closer coordination on the Korean 
Peninsula.
    What we have seen with this new government in Japan is a 
rapprochement with countries that have had problems with Japan 
because of a variety of historical issues. You've seen a real 
coming together between Lee Myong-Bak and the Japanese 
leadership about the need to focus more on the future than on 
the past.
    I think we can build on that further. I'll leave it to Chip 
to talk about that in greater detail.
    Senator Lieberman. Thank you. I appreciate that answer.
    General Gregson.
    Mr. Gregson. I would just briefly add that Secretary 
Campbell gives me too much credit. Secretary Gates and the 
ministers of defense of our two closest allies investments have 
been instrumental in bringing this cooperation together. May 
2009 at Singapore, in the immediate wake of the North Korean 
reported or claimed nuclear device detonation and the missile 
launches, saw the first trilateral defense ministerial meeting 
amongst the three allies, and the cooperation has just built 
from there.
    I mentioned earlier--I think you were out--that the 
alliance consensus, United States, Japan, ROK, on how to 
respond to North Korea is the foundation of the international 
consensus that we've built and sustained, thanks to the State 
Department and others, to constrain North Korea.
    Our bases in Japan are just as necessary to the defense of 
the peninsula as they are to security throughout all of Asia. 
We are undergoing two very complex alliance realignment efforts 
at the same time, General Sharp's effort in the ROK and then 
the other realignment effort across the Pacific. As Secretary 
Campbell mentioned, one airfield gets almost all the attention, 
but a number of other really breathtaking initiatives with 
Japan to better realign our forces, our bilateral capabilities, 
for the future, have gone on with relatively no drama.
    I'm very much an optimist on our ability to not only 
sustain our presence in the western Pacific, but actually to 
increase it and improve it.
    Senator Lieberman. Thanks for the answer. It struck me as 
you began that you haven't learned a lot around Washington, 
because you're giving other people credit, which is not what 
happens. [Laughter.]
    Mr. Gregson. Well, you know what I mean.
    Senator Lieberman. Thank you. I think you deserve a lot of 
the credit, but so do the other two ministers.
    General Sharp.
    General Sharp. Sir, just some specifics. What we're trying 
to work and what we have done over the last several years 
specifically on the U.N. rear bases which are in Japan is, 
there have been many folks from the national assembly in Korea 
that have gone over and visited those to understand the 
importance of Japan to our warfight. We're working very closely 
with them, as I said earlier, on ballistic missile defense, on 
search and rescue missions, to be able to do that, and on PSI 
type of activities. So that the military-to-military 
cooperation, we're trying to continue to improve that, so if 
there was a major conflict we'd be prepared for that from a 
trilateral perspective.
    Senator Lieberman. I'm going to ask one more question. This 
is a bit more diplomatic than military, so I'll focus on you, 
Secretary Gregson. I've been troubled by what seems to be the 
Chinese ambivalence and reluctance on the Iran sanctions. 
They've put themselves in a position of being outside what is a 
really impressive and, I think, effective, growing global 
consensus. Japan and South Korea are playing very strong, 
initiating, proactive roles here.
    I noticed in one of the papers today that the Chinese had 
cancelled Mr. Einhorn's visit to Beijing. I just wanted to ask 
you to reflect a bit on what we can do in the midst of all of 
this, because we all want to manage our relationship with China 
well, to bring them more into the global consensus on a really 
critical security issue and diplomatic issue like Iran.
    Mr. Gregson. As Secretary Campbell has stated a couple of 
times today, our relationship with China is complex, to say the 
least. We're continuing to work not only with China, but with 
all other concerned nations, to find an answer to our issues 
with Iran.
    Senator Lieberman. Secretary Campbell?
    Mr. Campbell. Let me try on that, Senator. I'd build on 
what General Gregson has said. I think there are a couple of 
ingredients that go into when you are successful in these 
circumstances with Chinese friends. Number one is persistence. 
This has to be undertaken over an extended period of time.
    Number two is that any time you sit down with Chinese 
friends you have a hierarchy of issues. You want to make sure 
that hierarchy is consistent and that the issue in question is 
near or at the top, not just from one interlocutor but all of 
them. I think both of those have been the case, vis-a-vis China 
to date.
    Number three is to make the powerful case about why moving 
in a certain direction is not just an American or larger 
interest, but in Chinese interests, and to try to articulate 
that reason why the sanctions effort with an attempt to change 
the very provocative behavior of the Iranian leadership with 
regard to nuclear weapons at this juncture is our best option.
    I think lastly is to undertake a diplomatic campaign 
whereby China does not feel that it wants to be perceived as 
the odd man out.
    So I think we're going to see over the course of the next 
couple of months an increasing recognition of a successful 
campaign, which I think you rightly and accurately portray, in 
which you have European, Russian, South Korean, Japanese, and 
other efforts at very broad and biting sanctions. I think it's 
going to be very clear to Chinese friends that they do not want 
to be an outlier in this regard.
    Senator Lieberman. Excellent.
    I'm afraid I do have to go back to that second vote, so 
I'll put the hearing in recess, or at least at ease, until 
Chairman Levin returns. I want to thank the three of you. This 
for me has been a very informative, educational hearing, 
honest, direct. Your testimony has been very strong and 
impressive, so I'm grateful for the leadership that the three 
of you are giving in this critically important part of the 
world.
    See you soon.
    [Recess from 11:30 a.m. to 11:38 a.m.]
    Chairman Levin. We're going to come back in session just 
for a couple of minutes. I think there will not be other 
Senators able to get back, so I just have one additional 
question. Unless other Senators arrive, this will be it.
    It has to do with the Six-Party Talks. Secretary Campbell, 
let me ask you the question. As has been mentioned, the Six-
Party Talks were stalled at the end of 2008, and then the North 
Koreans expelled the international nuclear inspectors. There is 
little reason since then to believe that North Korea will end 
its nuclear program. As a matter of fact, it appears somewhat 
contrary, that they remain intent to pursue a nuclear weapons 
program. That is evidenced by the test of June 2009, as well as 
the statements to that effect which they've made.
    Now, the administration has consistently said that it wants 
to see North Korea demonstrate through concrete actions its 
commitment to the complete and verifiable abandonment of 
nuclear programs. So my question to you is this. What 
conditions need to be met in your judgment before the Six-Party 
Talks can be restarted? What are the prospects for restarting 
the talks with North Korea, whether in a Six-Party format or 
perhaps some other format?
    Mr. Campbell. Thank you very much, Mr. Chairman. You've 
fairly accurately stated our position in your question, but 
I'll try to restate aspects of it back to you. First of all, 
Ambassador Bosworth and Ambassador Sung Kim are just completing 
their trip, consultations through the region. I think our 
position has been clear, it's been consistent, that we are 
prepared, under the appropriate conditions, to reconvene the 
Six-Party framework to deal with the difficult challenges posed 
by the nuclear provocations on the part of the North Koreans.
    In the current environment, given what has just transpired, 
we think an essential first step needs to be some reengagement 
between North and South Korea. I think that is going to be 
critical going forward and, as we have long held, we also think 
that it's going to be significant that North Korea again, as 
we've said in the past, underscores its commitment to fulfill 
its commitments that it took in 2005.
    We are looking very clearly for those signs. I think that 
in the coming days Ambassador Bosworth and Ambassador Sung Kim 
will be publicly underscoring what they learned on this 
particular trip to Japan, South Korea, and China.
    Chairman Levin. If there were a change in the leadership, 
we don't have any idea as to where that would lead? I think 
your answer was accurate, that our intelligence doesn't give us 
any clear suggestion as to who would be the likely successor. 
You may have stated that in a way which was overly succinct, 
but it was also accurate.
    Do we have any assessment as to whether or not it would be 
more likely that the Six-Party Talks would get back underway 
again if there were a change in the leadership? Is it more or 
less likely that, to the extent that you can make this 
assessment or that the intelligence community can make it, that 
the current leadership would be more likely to find a way back 
or take steps that are essential for the Six-Party Talks to 
resume than its potential successor?
    Is there anything on that issue, as to Six-Party Talks 
resuming, and who would be the leader?
    Mr. Campbell. Mr. Chairman, it's an appropriate question 
and it's a very difficult, very hard hypothetical. In fact, we 
just don't know enough to know. I think one of the things that 
we are trying to do in this environment is to state very 
clearly what our position is, which we feel has been consistent 
over time.
    I think there is a great benefit to that consistency, very 
clear statement of our purposes and our joint efforts on the 
part of both Japan and South Korea, and also I think on China. 
I believe that what is changing is perhaps a greater desire on 
the part of China to see progress in the Six-Party Talks. How 
that desire will be manifested, again the conditions will tell. 
But I think they understand very clearly the dangers and the 
risks that the current situation poses.
    Chairman Levin. We thank you all again for your service, 
and for your testimony. Unless any of you have something you 
want to add, we will stand adjourned. Thank you.
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Daniel K. Akaka
                   north korean leadership transition
    1. Senator Akaka. Secretary Gregson and Secretary Campbell, 
according to some media accounts, North Korea's ruling party could meet 
in the near future to choose new leadership for that country. It is 
important for the stability of the region and beyond that there be a 
smooth transition of power in North Korea. What do you think the 
results will be and what implications do they have for American foreign 
policy towards North Korea?
    Secretary Gregson. Though the ruling regime might use the Korean 
Workers' Party (KWP) Conference to initiate a more public phase of 
leadership transition, this process will likely unfold over many 
months, if not years. The important issue for American foreign policy 
is not who rules North Korea, but how. We will continue to pay close 
attention to the policies that the Democratic People's Republic of 
Korea (DPRK) leadership pursues, and we will focus on whether or not 
North Korea is serious about following through on its denuclearization 
commitments under the 2005 Joint Statement of the Six-Party Talks. 
Other important issues include refraining from provocations, taking 
steps to improve its relations with its neighbors, complying with 
international law and obligations, and improving human rights 
conditions and joining the international community for the betterment 
of its own people.
    If we see concrete evidence that the new leadership is changing its 
behavior on these issues in a sincere manner, then we have an 
opportunity to engage productively. We will respond appropriately 
working in close coordination with our allies.
    Secretary Campbell. We are watching very closely as events in North 
Korea unfold. North Korea appears to have used the KWP Conference to 
launch a more public phase of leadership transition. This transition 
process will likely continue over many months, if not years. The 
important issue for U.S. foreign policy is not who rules North Korea, 
but the policies that the DPRK leadership will pursue. The path that 
will lead the DPRK to the peace and prosperity it says it wants is one 
that upholds its denuclearization commitments under the 2005 Joint 
Statement of the Six-Party Talks, refrains from provocations, takes 
steps to improve its relations with its neighbors, complies with 
international law and obligations, improves human rights conditions, 
and joins the international community for the betterment of its own 
people.
    If we see concrete evidence that the North Korean leadership is 
changing its behavior on these issues in a sincere manner and 
demonstrates its serious intent to negotiate, then we have an 
opportunity to engage productively. In that event, we will respond 
appropriately working in close coordination with our allies.
    We will continue to engage in our dual-track strategy on the DPRK 
nuclear issue. We will continue to be open to engagement while 
continuing to pursue the full and transparent implementation of 
sanctions. We will not lift or lessen sanctions just for the sake of 
resuming talks.

                     south korean sanctions on iran
    2. Senator Akaka. Secretary Gregson and Secretary Campbell, South 
Korea recently announced independent sanctions on Iran for its 
contentious nuclear program. These sanctions, however, may have long-
term implications for South Korea. Iran is South Korea's biggest trade 
partner in the Middle East. South Korea relies on Iran for 10 percent 
of its crude oil imports. Also, some 2,000 small- and mid-sized 
enterprises have tapped into the fast-growing Iranian market. Could you 
comment on the possible implications that these sanctions could have on 
South Korea and what they mean for the United States and its allies?
    Secretary Gregson. My colleagues at the Department of State are 
best positioned to comment on this from the overall policy perspective, 
but let me just express the Department of Defense's (DOD) appreciation 
for South Korea's principled stand on this issue, which is consistent 
with our collective effort to pressure North Korea to make the right 
decision to abandon its nuclear weapons programs. We do not expect 
Iran's threats of retaliation to negatively affect South Korea.
    Secretary Campbell. South Korea publicly announced that it would 
join the emerging consensus of states, including the European Union, 
Australia, Canada, Norway, and Japan, in levying national sanctions 
against Iran. In doing so, it has taken a principled stand to pressure 
Iran to abandon its illicit nuclear activities. We recognize and 
appreciate that, given Iran's significant trade with South Korea, this 
decision to robustly implement U.N. Security Council resolution 1929 is 
not without cost. We applaud in particular South Korea's decision to 
impose sanctions on a number of Iranian economic sectors that have been 
exploited for proliferation-related purposes by entities and 
individuals of concern. We will continue to work closely with the 
Republic of Korea (ROK) Government to ensure full implementation of 
these measures.

                       trilateral summit meeting
    3. Senator Akaka. Secretary Campbell, the leaders of Korea, Japan, 
and China held the Third Trilateral Summit Meeting in late May of this 
year and discussed regional and global issues along with economic 
development measures among the three countries. How can the United 
States take advantage of arrangements such as this to encourage greater 
cooperation to promote regional peace?
    Secretary Campbell. The U.S. Government is supportive of the Third 
Trilateral summit meeting. We view meetings such as these as critical 
forums for laying the groundwork to improve security throughout 
Northeast Asia. We encourage close cooperation among our regional 
partners, in both regional and bilateral forums, and assess that 
increased communication between the three will benefit the United 
States when we engage each bilaterally.

                       u.s.-south korean alliance
    4. Senator Akaka. General Sharp, the United States is committed to 
providing a robust defense and maintaining an enduring and capable 
military presence on the Korean Peninsula. Our long-term commitment is 
signified by our plans to make 3-year-accompanied tours the norm for 
most U.S. troops in Korea. However, we must restructure the way we are 
postured, the way we operate, and the way we think to meet the 
challenges of emerging and changing threats in the region. What are 
some nontraditional missions and security issues that the United States 
and South Korea must face? How can we best deal with those issues?
    General Sharp. The United States and the ROK face a series of 
challenges at a time of significant change in the international system. 
As noted in the 2010 Quadrennial Defense Review, in addition to ongoing 
conflicts such as Afghanistan and maintaining peace and stability on 
the Korean Peninsula, a complex and uncertain security environment 
exists worldwide where the pace of change is accelerating. 
``Nontraditional'' challenges in this evolving complex security 
environment include the growing influence of non-state actors, the 
spread of weapons of mass destruction (WMD) and other destructive 
enabling technologies, and an ongoing need for the conduct of 
peacekeeping and humanitarian assistance/disaster relief operations. 
These evolving challenges pose profound challenges to international 
order. Just as the United States has committed itself to working with 
the international community to address these challenges, so has the ROK 
under its goal of building a ``Global Korea.''
    As non-state actors become more active and powerful, U.S. and ROK 
interests in and assured access to the global commons takes on added 
importance. The global commons--in particular sea and air--are 
important for the free flow of goods upon which the economic prosperity 
of both nations depends. In this regard, the United States and ROK have 
supported anti-piracy operations off the Horn of Africa to ensure 
unhindered access to this key component of the global commons. 
Similarly, the spread of WMD and other destructive enabling 
technologies threatens U.S. and ROK security. It is important to note 
that the ROK has recently elevated its role in the Proliferation 
Security Initiative (PSI) and in mid-October 2010 hosted a PSI drill 
that practiced the maritime intercept of vessels suspected of carrying 
WMD. An American destroyer and P-3C Orion aircraft participated in the 
exercise. Additionally, both the ROK and United States have made 
substantial progress in developing military plans related to a range of 
situations that could occur on the Korean Peninsula. Finally, simmering 
regional conflicts and last January's earthquake in Haiti indicate the 
continued need for international peacekeeping and humanitarian 
assistance/disaster relief operations. The ROK is currently 
participating in about 10 U.N.-sponsored peacekeeping operations and 
has been actively involved with assistance operations for Haiti.
    In order to best deal with these and other nontraditional missions 
in the future, active cooperation between the ROK and United States 
will be required, particularly within the guidelines established in our 
Strategic Alliance 2015 plan. Both nations--separately and as an 
alliance--will also have to continue cooperation with international 
organizations such as the U.N. as well as multinational groupings such 
as the PSI.

                 wartime operational control transition
    5. Senator Akaka. General Sharp, the United States agreed to a 
request by South Korea to delay the transfer of wartime operational 
control (OPCON) of forces on the Korean Peninsula. Originally scheduled 
for 2012, the proposed transfer will not take place until 2015. Beyond 
what was contained in your opening statement before the committee, how 
will this delay affect our forces in Korea? What issues do you see and 
how are you addressing them?
    General Sharp. Though the ROK military was fully prepared to 
complete wartime OPCON transition in 2012, the delay--at the request of 
the Korean Government--contains both positive and negative implications 
for our forces in Korea.
    On the positive side, the delay presents us with an opportunity to 
better synchronize OPCON transition with other ongoing alliance and 
U.S. initiatives in Korea, including the Yongsan Relocation Plan and 
Land Partnership Plan (LPP) as well as the normalization of tours for 
U.S. servicemembers in Korea. The delay also affords us the opportunity 
to take a more deliberate look at OPCON transition and to refine our 
efforts in the implementation as it becomes an element of the bilateral 
whole-of-government Strategic Alliance 2015 plan. The Strategic 
Alliance 2015 plan was agreed to and signed by the U.S. Secretary of 
Defense and ROK Minister of National Defense on 8 October 2010.
    The most significant challenge presented by the delay in OPCON 
transition is the extended requirement for our forces in Korea to 
sustain a dual focus in which we must continue to be prepared to 
``fight tonight'' under the current alliance construct even as we 
aggressively plan, train, and validate/certify ourselves to execute 
OPCON transition in December 2015.
    I believe that the comprehensive bilateral Strategic Alliance 2015 
plan effectively leverages the positive aspect of OPCON transition 
delay by integrating into a single plan all the ongoing alliance 
transformation initiatives. The plan, I believe, also strikes the 
proper balance between articulating a process for planning, training, 
and validating OPCON transition while at the same time sustaining 
``fight tonight'' readiness under the Combined Forces Command (CFC) 
structure.
    Maintaining the confidence of the American and Korean people that 
we are successfully navigating the challenge inherent in OPCON 
transition is critical to conveying to North Korea that this extended 
period of transition does not present them with any opportunity for 
adventurism or provocation for reward. It is vitally important that our 
public messaging regarding OPCON transition leaves no doubt on the part 
of North Korea or others in the region that the ROK-U.S. alliance 
remains steadfastly committed and capable of meeting our mutual defense 
treaty and armistice obligations to defend the ROK.
                                 ______
                                 
            Questions Submitted by Senator Claire McCaskill
                 2010 defense ballistic missile review
    6. Senator McCaskill. Secretary Gregson and General Sharp, I 
believe one of the most serious threats facing the United States is 
North Korea's nuclear program. A Council on Foreign Relations report 
noted, ``The North's nuclear arsenal, its pursuit of more advanced 
missile technology, and the possibility that it could transfer nuclear 
weapons or materials to others (whether states or terrorist groups) 
pose significant dangers to the United States and its allies in the 
region and beyond.'' The urgency of the threat is clear. Analysts 
believe that North Korea's missile arsenal is becoming more accurate 
and can reach U.S. bases in Guam. In addition, North Korea continues to 
threaten its neighbors, including South Korea, and remains in a fragile 
position with regard to the possible succession of Kim Jong-Il.
    DOD's 2010 Ballistic Missile Defense Review (BMDR) suggested that 
our system of ground-based midcourse defense and inceptors is capable 
in the foreseeable future to counter the projected threat from North 
Korea. Given the present threat and North Korea's known ability to 
reach U.S. bases in Guam with their land-based missile systems, are you 
comfortable with the BMDR's assessment and our ability to interdict 
North Korean missiles?
    Secretary Gregson. Yes, I am comfortable with the assessment of the 
2010 BMDR. The BMDR says that the U.S. Homeland is currently protected 
against the threat of a limited intercontinental ballistic missile 
(ICBM) attack. Based on the improvements we are making to the Ground-
Based Midcourse Defense (GMD) system, we possess the capacity to 
counter the projected threat to the U.S. Homeland from North Korea for 
the foreseeable future.
    In terms of the regional threat from North Korea, Secretary Gates 
notes in the BMDR's preface that he has made defending against near-
term regional threats a top priority of our missile defense plans, 
programs, and capabilities. The BMDR acknowledges that our regional 
missile defense capabilities are modest compared to the expanding 
regional missile threat. The administration has taken steps to address 
this problem by making additional investments in regional missile 
defense capabilities, such as Terminal High Altitude Area Defense 
(THAAD) systems and SM-3 Block IA interceptors beginning with the 
fiscal year 2010 budget.
    In addition, the BMDR highlights the need to think strategically 
about the deployment of regional missile defenses. We are pursuing a 
phased adaptive approach (PAA) to missile defense in East Asia that is 
tailored to the threat and security requirements of the region. This 
regional approach focuses in part on bolstering partner capabilities, 
as well as acquiring our own capabilities that are mobile and 
relocatable so that we can surge defenses into the region in times of 
crisis.
    General Sharp. North Korea possesses an overmatch capability versus 
the ROK and U.S. anti-tactical and ballistic missile capabilities. 
North Korea simply has more tactical ballistic missiles (TBM) and 
ballistic missiles than U.S. Forces Korea (USFK) and CFC can defend 
against. Additionally, no layered defense exists in the ROK. There are 
eight U.S. Patriot batteries defending assets against TBM. The ROK 
Patriot batteries will conduct air breathing defense of assets and on 
order a limited TBM defense (upon OPCON Transition; Strategic Alliance 
2015, the ROKs will conduct TBM defense primarily and on order conduct 
ABT defense) of those assets. In Guam, there is no dedicated anti-
Ballistic Missile Defense or TBM system. U.S. Pacific Command has 
several plans which look at missile defense of Guam with a THAAD 
Battery. There is one such test battery located in Hawaii but there is 
currently no dedicated THAAD unit for the missile defense of Guam.

                        phased adaptive approach
    7. Senator McCaskill. Secretary Gregson and General Sharp, how do 
you anticipate the implementation of the PAA for missile defense in 
Europe will affect our nuclear contingency plans in the region, and how 
does North Korea fit into that calculus?
    Secretary Gregson. Missile defenses are an important element of the 
U.S. commitment to strengthening regional deterrence architectures 
against states acquiring or using nuclear weapons and other WMD. They 
also support U.S. and allied capacities for mutual defense in the face 
of coercion and aggression. In these ways, missile defenses strengthen 
U.S. goals of deterrence, extended deterrence, and assurance. While 
missile defenses play an important role in regional deterrence, other 
components will also be significant. Against nuclear-armed states, 
regional deterrence will necessarily include a nuclear component 
(whether forward deployed or not).
    The PAA we apply in East Asia will look different from PAA in 
Europe, but the principles are the same. It will be phased in the sense 
that we will bring new technologies on line as they become available, 
and it will be adaptive to the particular security needs and the 
security architecture of the region. Missile defense cooperation in 
East Asia cannot utilize a formal defense infrastructure like NATO, but 
we are enhancing our ability to protect forward deployed U.S. forces, 
allies, and partners. We are promoting multilateral cooperation 
wherever possible.
    The missile threat from North Korea is a primary focus of our PAA 
efforts in East Asia. The improvements we are making will strengthen 
our defense against such threats.
    General Sharp. The major impact of the PAA for the region will be 
to improve the interoperability and target acquisition capability of 
regional missile defense systems. This will provide a measure of 
additional protection to our allies and U.S. forces in the region. 
Deterrence will be enhanced by limiting North Korea's confidence in the 
effectiveness of using their missiles to attack the ROK and U.S. forces 
stationed there. This will reinforce strategic deterrence as a critical 
component of extended deterrence for our allies and assuring them of 
U.S. commitment to it treaty allies and partners. Overall, risk will be 
reduced because missile defense will reinforce strategic deterrence and 
reduce our reliance on any one component of extended deterrence to 
deter North Korea.

    8. Senator McCaskill. Secretary Gregson and General Sharp, do you 
feel a PAA will provide added protection to our allies and partners and 
enhance our ability to canvass Northeast Asia?
    Secretary Gregson. Yes. Regional missile defenses are a valuable 
component of our security strategy in the region. As I noted earlier, 
the phased aspect of the approach refers to bringing new technologies 
on line in response to the threat and as they become available, which 
means that we will have our most effective systems in the field. Our 
cooperative development program with Japan has been particularly 
valuable in this regard.
    In addition, by emphasizing the adaptive nature of this approach, 
we have enough flexibility to promote cooperation with allies and 
partners as opportunities arise. We can press ahead with deep 
cooperation with one partner, while we reassure other partners that we 
can still work together to address their needs without enlisting them 
in a rigid, region-wide architecture. Our near-term focus is to develop 
a more detailed and widely shared picture of potential missile launch 
activity in the region (by increasing the number of sensors that can 
``talk'' to each other), which will provide added protection for our 
allies and partners, as well as for our forward-deployed forces.
    General Sharp. The PAA is a strategy to incrementally enhance and 
improve missile defense of U.S. forces as well as our allies. Adopting 
this approach will allow those partners who contribute to and support a 
multinational regional missile defense strategy to better negate an 
improving missile threat. The United States has several bilateral 
agreements with partners in Northeast Asia and the Pacific Rim which 
individually improve the ballistic missile defense in the region. Only 
through multilateral/multinational agreements, however, can the 
synergistic effects of integrated missile defense reach its true 
potential.
                                 ______
                                 
               Questions Submitted by Senator John McCain
                     construction of family housing
    9. Senator McCain. General Sharp, my staff has been recently 
briefed that, according to the current plan, it may cost military 
families anywhere from $4,000 to $6,000 per month to rent an apartment-
style housing unit constructed by a private developer on Camp 
Humphreys. This cost is just for rent for a house on the base--it 
doesn't include utilities or any other costs. The alternative to this 
extremely high rent is equally as expensive--an estimated $1.4 billion 
to build housing with military construction funds. What can be done to 
reign in these incredibly high costs?
    General Sharp. The 2003 National Defense Authorization Act 
authorized a $35,000 lease cap for family housing in Korea. The 
purchasing power of the $35,000 leases was only $38,799 for fiscal year 
2008. At the time, the Build-To-Lease (BTL) program required purchasing 
power of about $61,000 per unit per annum ($5,000/month). The Office of 
Management and Budget scored 2,100 leases at $629 million. Eventually, 
BTL did not have the support of Congress to increase the purchasing 
power to enable construction of houses. Additionally, in fiscal years 
2008/2009, a requirement emerged for the Army to develop a military 
construction option when statutory limits did not support BTL. The 
military construction option was estimated at $1.4 billion for 2,400 
houses--of which only $125 million (204 houses) was supported by the 
Office of the Secretary of Defense. Simultaneously, the Army developed 
the Humphreys Housing Opportunity Program (HHOP-I) to meet the housing 
needs in Korea. HHOP-I uses the Soldier's Overseas Housing Allowance 
(OHA) entitlement as capital for a developer to construct and operate 
family houses in support of Korea transformation.
    The city of Seoul, ROK, has consistently been in the top 10 of the 
world's most expensive cities. Rapid population growth in the ROK 
continues to expand the commute area for those who work in Seoul and 
live as far away as Pyeongtaek.
    The monthly rental rate of $4,200/month for HHOP-I is based on a 
competitive process to develop, construct, operate, maintain, and 
revitalize for 45 years.

    10. Senator McCain. General Sharp, do you have an estimate of how 
many additional families will require housing in additional to the 
3,400 housing as a result of normalizing tours?
    General Sharp. Full tour normalization can only be achieved when 
all required infrastructure is in place to meet the needs of 
servicemembers and their families. Family housing is one of those 
requirements. There needs to be enough available housing units on and 
in the vicinity of enduring installations to support all command-
sponsored families choosing to come to Korea. My goal is for 60 percent 
of command-sponsored military families to reside on-post. USFK's 
current baseline is 3,490 family housing units. Over the course of 
Korea transformation, 1,150 of those units will be demolished or 
returned to the ROK because they are either at locations that will 
block developmental plans at enduring installations or exist on a 
facility that will be returned to the ROK. Subtracting these 1,150 
units from the current family housing baseline of 3,490 units leaves a 
net baseline of 2,340 units. Achieving my goal of housing 60 percent of 
military families on post requires a total of 7,215 family housing 
units. Thus, an additional 4,875 family housing units will need to be 
built. Subsequent to the September 2010 testimony, the Secretary 
directed a housing market assessment to review the available off-base 
housing around the Humphreys area. This assessment will cause USFK to 
update the housing requirement for review and decision by the Secretary 
of Defense in the spring of 2011.

    11. Senator McCain. General Sharp, do you have an estimate of the 
overall costs to taxpayers to provide the housing, schools, and other 
community facilities and infrastructure to support your goal of 
normalizing tours?
    General Sharp. Achieving the Secretary of Defense-approved DOD goal 
for full tour normalization in Korea requires additional housing, 
schools, and other community facilities. USFK currently projects an 
overall cost of approximately $2.5 billion to the United States that 
will be spread over fiscal years 2012-2020 for these additional tour 
normalization facilities. The investment in tour normalization provides 
several benefits. Implementation will improve combat capability and 
force readiness by decreasing personnel turnover. Today, 85 percent of 
the force in Korea is on a 1-year assignment. When complete, almost all 
military personnel will be on 3-year accompanied or 2-year 
unaccompanied tours. Tour normalization demonstrates a greater 
commitment on the part of the United States to the ROK as well as the 
larger Asia-Pacific region. Two- and 3-year tours reduce stress on 
servicemembers and their families by decreasing separations and 
reducing the number of permanent change-in-station moves. Finally, the 
timing for normalization is right, because it leverages other Korea 
transformation initiatives such as the Yongsan Relocation Plan and LPP.

    12. Senator McCain. General Sharp, do you even have the available 
land on Camp Humphreys to build the housing required to support the 
additional families?
    General Sharp. The current U.S. Army Garrison (USAG) Humphreys 
master plan calls for 2,902 units on that installation to support a 
command-sponsored population of 3,198 (3,740 total for Korea). We have 
also developed options to locate 1,477 additional family housing units 
on USAG Humphreys for a fiscal year 2020 command-sponsored population 
of 7,762 (8,667 total for Korea), thus providing on-post family housing 
for 56 percent of all command-sponsored personnel.

                          host nation funding
    13. Senator McCain. General Sharp, I have a question about the use 
of host nation funding provided to support our forces in Korea. Can you 
provide what amount and through what year the current Status of Forces 
Agreement requires for contributions by the ROK to support your 
construction requirements for all U.S. forces on the peninsula?
    General Sharp. The ROK has been providing contributions to help 
offset the costs of stationing American military forces in Korea since 
1991. Provisions dictating current cost-sharing contributions made by 
the ROK are established in the Special Measures Agreement (SMA). 
Currently, we are operating from a 5-year SMA, which is in effect 
through 2013. Under this SMA, ROK cost-sharing contributions are 
divided into three categories:

    (1)  Labor: cash payments for the salaries and benefits of Korean 
national employees working for USFK;
    (2)  ROK Funded Construction: cash and in-kind transfers used for 
USFK's military construction and military construction-like 
requirements; and
    (3)  Logistics: in-kind provision of logistics equipment, supplies, 
and services to USFK.

    During calendar year 2011 the ROK cost-sharing contribution will be 
valued at 812.5 billion won ($688 million). Of this 812.5 billion won, 
333.2 billion won ($282 million) will be allocated toward ROK funded 
construction. Future increases in the annual ROK cost-sharing 
contribution are tied to changes in the ROK consumer price index. Thus, 
it is not possible at this time to specify what the ROK cost-sharing 
contribution will be valued at in 2012 and 2013; it depends on future 
changes in the ROK consumer price index. That being said, USFK plans on 
allocating about $300 million of the ROK cost-sharing contribution in 
2012 and 2013 to ROK funded construction.
    Since the current SMA expires in 2013, it is not possible at this 
time to make definitive statements on what the ROK cost-sharing 
contribution will be after 2013. But it should be noted that the ROK 
has provided cost-sharing support since 1991. Thus, we expect such 
support will continue well after 2013, although the total value of that 
support has yet to be determined (and will be negotiated during the 
development of a post-2013 SMA). A portion of this future cost-sharing 
support will be allocated to projects that fall under the category of 
ROK funded construction.

    14. Senator McCain. General Sharp, what is your plan for spending 
that money, broken down by proposed investments on each military 
installation?
    General Sharp. All expenditures for construction (ROK funded 
construction component of the SMA program) through 2013 (the last year 
of the current SMA) will be prioritized toward supporting U.S. 
responsibilities under the LPP at USAG Humphreys. Semi-annual reviews 
will be conducted, however, to consider non-LPP requirements on a case-
by-case basis for funding with ROK funded construction support. The 
urgency of these requirements will be weighed against the possibility 
of delays in execution and completion of the LPP.

    15. Senator McCain. General Sharp, are we using all contributed 
funds to pay for the consolidation of Army forces at Camp Humphreys 
while in effect starving other critical facility and infrastructure 
requirements on the peninsula?
    General Sharp. We are not starving other critical facility and 
infrastructure requirements on the peninsula. USFK holds semi-annual 
boards to consider other requirements on a case-by-case basis for 
funding. The urgency of the requirements is weighed against slippage in 
execution and completion of the LPP. In the past 2 years, 11 non-LPP 
requirements were approved for construction; 7 of the approvals were on 
Army installations, 2 on Air Force installations, and 1 each on Navy 
and Marine Corps installations.

                          future force posture
    16. Senator McCain. General Sharp, despite the delay in OPCON 
transfer authority, will the Army brigades, currently stationed in 
Korea, be available for worldwide deployment as part of the Army's 
Force Generation program? Why or why not? If so, when will the first 
U.S. Army brigade from Korea be set to deploy off the Korean peninsula?
    General Sharp. [Deleted.]

         housing requirements in korea for additional families
    17. Senator McCain. General Sharp, what is the status of the 
decision within DOD to proceed with the plan to normalize tours for 
U.S. personnel in Korea?
    General Sharp. The Secretary of Defense provided a memorandum, 
subject: USFK Tour Normalization, dated October 18, 2010, codifying his 
decision directing full Tour Normalization on September 23, 2010.
    The Secretary of Defense directed USFK and the Services to proceed 
with full tour normalization for Korea, as affordable, but not 
according to any specific timeline. Full tour normalization in Korea 
will further our long-term commitment to support our forward stationed 
troops and their family members. This decision also directed the Army 
to execute the HHOP-I immediately for 1,400 units and to continue 
pursuing MILCON for additional family housing. The Army was also 
directed to perform a study of the off-post housing market in Pyongtaek 
and other areas (including off-base Osan) impacted by tour 
normalization, to be completed within the next 120 days. The Secretary 
further directed USFK, United States Pacific Command, the Services, 
Office of the Secretary of Defense (OSD)-Cost Assessment and Program 
Evaluation (CAPE), and other relevant OSD organizations to provide 
him--no later than March 31, 2011--with a feasible and affordable plan 
to continue this momentum towards full tour normalization on the Korean 
peninsula.

    18. Senator McCain. General Sharp, given the precarious succession 
situation on the peninsula and our collective inability to curb North 
Korea's bad behavior, is this the right time to normalize and add 
accompanied tours?
    General Sharp. This is the right time to normalize tours in Korea. 
Tour normalization contributes to increased capability and readiness 
(decreased permanent-change-of-station turnover of 85 percent compared 
to 1-year assignments); reduced stress on 7,389 servicemembers and 
families per year; demonstration of greater U.S. commitment to the 
Asia-Pacific region; and enhanced agility and availability for regional 
exercises and humanitarian assistance/disaster recovery operations.

                   training in the republic of korea
    19. Senator McCain. General Sharp, regarding training of forces on 
the peninsula, I am concerned about the availability and quality of 
ranges available to U.S. forces to support land maneuver and air 
training. What is your assessment of the current status and quality of 
ranges available to U.S. forces?
    General Sharp. Ranges available for air-to-ground weapons training 
were sufficient on the Korean peninsula up until August 2005. At that 
time, the ROK Government closed the only range available for U.S. 
exclusive use due to political pressure concerning encroachment issues 
as well as the opening of a new runway at Incheon International 
Airport. This range provided 60 percent of all USFK air-to-ground 
training--approximately 4,000 sorties per year. The training shortage 
caused by this closure was immediately apparent and the combat ready 
status of USFK aircrew has suffered ever since. ROK Air Force and U.S. 
Air Force squadrons share training time on the two air-to-ground ranges 
currently available on the Korean peninsula. However, even if U.S. Air 
Force assets received 100 percent of the negotiated time, we would 
still not meet our training requirements. Furthermore, these ranges are 
of such small size that realistic tactical training is severely limited 
due to restrictions on ordnance types. These limitations are especially 
restrictive with regard to live precision-guided munitions such as 
laser and GPS guided bombs as well as air-to-surface missiles and 
electronic warfare training.
    Attempts to mitigate the effects of this training shortfall have 
resulted in some minor improvements to the scheduling and utilization 
processes. Some areas of improvement include extending range 
operational hours, allowing USFK to utilize ranges on official ROK 
holidays, and temporary approval to expend limited types of live 
ordnance. However, these improvements are marginal in nature and will 
do little to fix the overall problem of not having sufficient range 
space and available time.
    All discussions with the ROK concerning the opening of a new air-
to-ground training range have been unsuccessful and we have had no 
movement. USFK is left with no other alternative but to mitigate this 
training shortfall by annually deploying flying units stationed in 
Korea to other training areas in Alaska and the Continental United 
States to accomplish the training required to maintain combat 
readiness.
    Eighth United States Army (8A) possesses adequate training 
resources to maintain unit Full Spectrum Operations (FSO) readiness on 
the Korean peninsula. Ongoing modernization of live training facilities 
and our ability to export our live training technologies to ROK Army 
training lands provided under international agreements ensures our 
ability to sustain live training for the foreseeable future. Under 
these current international agreements, 8A has access to numerous ROK 
ranges and training facilities allowing 8A to meet and overcome the 
capabilities gap currently present on U.S. ranges and training 
facilities on the Korean peninsula. To ensure full capacity to train to 
FSO, 8A is aggressively leveraging virtual and constructive 
technologies to achieve high levels of training readiness at division 
level and below. In fiscal year 2014, 8A will be fielded with the 
newest live, virtual, constructive integrated training environment 
(ITE) that will provide significant improvements in the efficiency and 
effectiveness of FSO training delivery. The ITE coupled with current 
modernization projects at our enduring live training centers, and 
upgrades to our current simulator systems, will produce an 8A FSO 
training capacity on par with any other, Army wide.

    20. Senator McCain. General Sharp, please provide an update of what 
initiatives you have undertaken or planned to improve access and the 
quality of ranges for U.S. forces.
    General Sharp. I have directed the Combined Air Component Command 
to undertake a mitigation study to address the lack of air-to-ground 
training opportunities. This study will continue through December 2010. 
However, the results of this study will only allow small improvements 
in the efficiency of the range scheduling and utilization processes. It 
will not solve the underlying problem of simply not having sufficient 
air-to-ground ranges on the Korean peninsula. Until the ROK Government 
addresses the issue and undertakes the construction of a new air-to-
ground range, USFK will continue to deploy forces outside the peninsula 
in order to accomplish required training.
    The 8A has adequate access to ranges needed to sustain FSO 
readiness. 8A is seeking access to an additional ROK Army facility that 
is capable of providing an alternative source for limited armor, 
mechanized, and aviation gunnery to supplement our existing U.S. 
facilities when required. The quality of Army ranges has achieved a 
significantly higher level in 8A as compared to just a decade ago. For 
example, this year, we are modernizing our primary armor, mechanized, 
and aviation qualification ranges to full digital capabilities. This 
postures us to fully support the weapons modernization the 2nd Infantry 
Division will undergo beginning in January 2011 to become a digital 
force. Our Program Objective Memorandum 12-17 range modernization plan 
continues our efforts to establish sufficient live-fire capacity and 
quality capabilities across the Korean peninsula culminating with the 
Yongsan Relocation Plan.

    [Whereupon, at 11:44 a.m., the committee adjourned.]

                                 <all>

</pre></body></html>
